OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/IRAQ’S
IMPLEMENTATION OF THE IRAQ
FINANACIAL MANAGEMENT
INFORMATION SYSTEM
AUDIT REPORT NO. E-267-10-002-P
JULY 19, 2010




BAGHDAD, IRAQ
Office of Inspector General


July 19, 2010

MEMORANDUM

TO:                  USAID/Iraq Mission Director, Christopher D. Crowley

FROM:                Director, Office of Inspector General/Iraq, Lloyd J. Miller /s/

SUBJECT:             Audit of U SAID/Iraq’s Implementation of th e Iraq Fin ancial Management
                     Information System (Report Number E-267-10-002-P)


This memorandum transmits our final report on the subject audit. We have carefully considered
your comments on the draft report in finalizing the audit report and have included your response
in appendix II of the report.

The report contains one recommendation for your actio n. On the basis of y our written
comments, we consider that both a management decision and final action have been taken on
recommendation number 1.

I want to e xpress my appreciation for the co operation and courtesies extended to my staff
during this audit.




U.S. Agency for International Development
USAID/Iraq
Box 47, Unit 2047
APO, AE 09870-2047
www.usaid.gov/oig
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

     Audit Objective ............................................................................................................ 4

Audit Findings ................................................................................................................. 5

     Some Contract Deliverables Were
     Not Completed ............................................................................................................ 7

     The Iraq Financial Management Information
     System Is Not Meeting System Users’ Needs........................................................... 12

Evaluation of Management Comments ....................................................................... 18

Appendix I—Scope and Methodology......................................................................... 36

Appendix II—Management Comments........................................................................ 38
SUMMARY OF RESULTS
The Iraq Financial Management Information System was developed under two contr acts
between USAID and BearingPoint, Inc., that ran from July 2 003 through July 2009. As
of November 1, 2009, USAID had spent about $32.6 million to develop the syste m. In
addition, the U.S. Department of State had spent $4.8 million on modules that were later
incorporated into the system, for a total cost of $37.4 million. The system was designed
to help the Govern ment of Iraq formulate, execute, and monitor central government
budgets (see page 3.)

In June 2007, USAID/Iraq notified the Ambassador’s office that they had suspended
implementation of the Ir aq Financial Management Information System due to a la ck of
commitment from the Iraq Ministry of Finance and the abduction of five USAID British
contractors. In January 2008, a memorandum of understanding was signed by USAID
and the Ministry of Finance.         The memorandum of under         standing laid down
responsibilities and the terms for the handover of the system to the Ministry of Finan ce.
USAID’s commitments were subsequently incorporated into a September 2008 co ntract
modification to establish nine deliverables for the completion of th     e Iraq Fina ncial
Management Information System (see page 3).

Although BearingPoint completed a substan tial amount of systems development,
equipment procurement, and train ing, the Ira q Financial Management Information
System has not been fully implemented and h as not a chieved its go als of helping the
Government of Iraq formulate, exe cute, and monitor centr al government budgets. The
system was not being u sed as the Government of Iraq’s system of record, and among
other issues, the syste m could not produce complete trial balances,        produce useful
reports for individual ministries and offices, produce information needed to perform bank
reconciliations, support voucher numbers that would           uniquely identify individual
ministries and offices, or support multiple budgets for individual ministries and off ices
(see pages 5 to 6).

These issues occurred f or two main reasons. First, the co ntractor did not provide key
contract deliverables, including purchasing and budget mod ules, an offline data-entry
tool, enhanced reporting tools, and participant s were not satisfied with t he training that
the contractor had provi ded. (See pages 7 to 11.) Second, in the urgent pressu re to
develop the system in postwar Iraq, the contractor did not follow certain best practices
for systems developme nt, including obtaining f unctional user requirements, sele cting a
system on the basis of system and user requirements, developing a concept de sign,
obtaining customer buy-in and support, and conducting          system te sting. Had the
contractor followed these best practices, it co uld have a voided many of the prob lems
identified in this report. (See pages 12 to 17.) In addition, USAID/Iraq stated that a lack
of support and commitment by some officials within the         Ministry of Finance of the
Government of Iraq hindered the implementati on of the Iraq Financia l Management
Information System (see page 6).

To address these issues, the report recommends that USAID/Iraq develop a strategy for
correcting system deficiencies (see page 17). USAI           D/Iraq concurred with th e
recommendation. According to the mission, all funding has concluded, and USAID/Iraq
is not planning any further funding of the Iraq Financial Management Information System


                                                                                          1
because of difficulties resulting from the lack of sufficient support at a ppropriate levels
within the Ministry of Finance. USAID/Iraq al so stated th at if the Ministry of Finance
were to demonstrate an unequivocal commitment to               support the Iraq Financial
Management Information System, and to reque st USAID’s assistance, the mission could
consider additional support. If such support were provide d in the future, it would be
developed using an action plan that includes th e elements in the OI G recommendation.
In light of these comments, we consider that recommend ation number 1 has b oth a
management decision and final action (see pages 38 to 65).

Although USAID/Iraq a greed with the report recommendati on, it thought that the report
was too critical of USAID/Iraq an d its contractor and not sufficiently critical of the
Government of Iraq, which as the in tended user of the system, shared responsibilit y for
implementing it. The mission provided a large number of detailed comments expressing
disagreement with the report’s specific findings and conclusions. We addressed issues
specific to our audit findings, and   have made changes to this final audit report to
incorporate additional information provided by the mission. However, we disagreed with
most of the mission’s comments. In some cases, the          comments were based on
inaccurate, unsupported, or irrelevant information. In o     ther cases, the mission’s
comments appeared to reflect the o pinions of t he contractor who drafted the mission’s
comments. (See pages 18 to 35.)




                                                                                          2
BACKGROUND
The Coalition Provisional Authorit y, under the authority of the U.S. Govern       ment,
instructed USAID to begin implementation of a financial management information system
for the Government of Iraq through the Economic Governance contra ct implemented by
BearingPoint, Inc. (Bea ringPoint). This initiative was motivated by the need       for a
modern budgetary acco unting system to track and manage the expen ditures made by
the Coalition Provisional Authority on behalf of the occu pied Government of Iraq and
ultimately by the Go vernment of Iraq itsel f, as its financia l system of record. From
January to May 2003, USAID, BearingPoint, the Coalition Provisional Authority, and
other US Government agencies developed the program requirements for the Econ omic
Governance Program, which included a task for developing a financial management
information system for the Govern ment of Iraq. The system was designed to help the
Government of Iraq formulate, execute, and monitor central government budgets.

USAID’s first level-of-effort contract with BearingPoint, known as Economic Governance
I, included numerous tasks re lated to economi c and f inancial reforms for Iraq, one of
which was development of a finan cial management information syste m. The co ntract,
as amended, covered the period fro m July 18, 2003, to September 30, 2004. The total
amount disbursed under this contr act was $79.6 million. In September 2004, USAID
awarded a follow-on level of effort contract       to BearingPoint kno wn as Economic
Governance II. The co ntract included 398 ta sks to continue economic and fin ancial
reforms, including the Ir aq Financial Management Information System, and covered the
period from September 3, 2004, to Septemb er 2, 2009; however, t he contract was
terminated in July 2009 when the contract ran out of funds. The total amount disbursed
under this contract was $222 million. The Iraq Financia       l Management Informa tion
System was developed under these two contracts between USAID an d BearingPoint
that ran from July 2003 through July 2009. As of November 1, 2009, USAID had spent
about $32.6 million to develop the system. In addition, the U.S. Department of State had
spent $4.8 million on modules that were later incorp orated into the syste m’s
development, for a total cost of $37.4 million.

In June 2007, USAID/Iraq notified the Ambassador’s office that they had suspended
implementation of the Ir aq Financial Management Information System due to a la ck of
commitment from the Iraq Ministry of Finance and the abduction of five USAID British
contractors. In January 2008, a memorandum of understanding was signed by USAID
and the Ministry of Finance. Th         e memorandum of understanding laid down the
responsibilities of both p arties for the restart of work on the Iraq Financial Management
Information System project and the terms for the handover of the system to the Mi nistry
of Finance. USAID’s commitments in the memorandum of und erstanding were
subsequently also incorporated into a Septemb er 2008 mo dification of the Economic
Governance II contract t o establish nine deliverables including 59 relat ed tasks for the
completion of the Iraq Financial Management Information System.

On February 18, 2009, BearingPoint filed for Chapter 11 bankruptcy. On       March 23,
2009, BearingPoint reached an agreement to sell substantially all of its businesses,
including its Federal Government b usiness, to Deloitte Consulting, LL P. The sale was
finalized on May 8, 20 09, and BearingPoint ceased oper ations in Ira q as of Jun e 30,




                                                                                        3
2009. Deloitte continue d work under the contra ct for one more month but ceased w ork
on July 30, 2009.


AUDIT OBJECTIVE
The Office of Inspector General/Iraq conduct ed this aud it to an swer the followin g
question:

   Has the Iraq Financial Management Inform ation System been implemented, and has
    it achieved its main goals of helping the Government of Iraq formulate, execute, and
    monitor central government budgets?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                      4
AUDIT FINDINGS
After 6 years of effort, t he Iraq Financial Management Information Syst em has not been
fully implemented and has not achieved its main goals of helping the Government of Iraq
formulate, execute, and monitor central government budgets. The inf ormation system
has not been accepted by the Ministry of Finance, and it is not being used as the system
of record for the Government of Iraq.

Among its achievements during the 6 years           of work, BearingPoint installed the
information system in the Ministry of Finance and in 120 of the 270 ministries and offices
throughout Iraq; provided 210 computers, 77 printers, and 17 satellite connecti       ons;
provided a recovery system that would rest      ore the infor mation system in case of
disaster; and introduced the information system through t raining to 245 ministries and
offices across Iraq. In addition, the information system proved capable of producing
financial information that matched information in the Government of Iraq’s legacy system
in fiscal years 2005, 2006, and part of 2007. 1

Although BearingPoint completed a substan tial amount of systems development,
equipment procurement, and training, key contract deliverables were not completed, and
the system has not produced the capability that meets the Government of Iraq’s needs.
The Ministry of Finance has not accepted the information system or placed it into use as
the system of record.

Tasks not completed included:

     Effecting handover of the information system to the Ministry of Finance.

     Implementing the budget and purchasing modules.

     Implementing a work-around for offline data entry.

     Implementing reporting capabilities that meets the needs of the Government of Iraq
      and the International Monetary Fund (IMF).

     Establishing a relationship between the software/hardware vendors and the Ministry
      of Finance.

     Providing adequate training.

     Conducting adequate testing of the system.

In addition, the information system was not configured on t he basis of the users’ needs,
and, as a result, the system cannot per form the day-to -day financial management
operations of the Government of Iraq’s ministries and offices.

Users reported numerous proble ms with th e system t hat prevented them from
performing necessary tasks. They relied inste ad on the Government of Iraq’s legacy

1
    The Iraq Financial Management Information System was temporarily shut down in May 2007.


                                                                                              5
system 2 to conduct their work. Some exa mples of the pr oblems follow. The syste m
could not:

   Enter invoices with unique invoice numbers.

   Provide information needed to perform bank reconciliations.

   Provide for more than one bank account.

   Provide automatic opening balances that were based on closing balan ces from th e
    previous accounting period.

   Produce useful reports for individual ministries and offices.

   Produce accurate and complete trial balances.

   Add a supplemental budget for midyear increases to the budget.

   Add new accounts to the chart of accounts.

   Automatically save entered transaction data.

   Inform user when budget ceilings are exceeded.

   Transmit information quickly through the system.

These issues occurred in part because th e project was funded under a cost
reimbursable contract that did not hold the contractor accountable for noncompletion of
contract deliverables. Also, in the urgent pressure to de velop the system in postwar
Iraq, the contractor did not follow certain best practices for systems development. These
practices included obtaining functional user requirements, selecting a system on the
basis of technical and user requ irements, developing a concept design, obtaining
customer buy-in and support, and         conducting system testing. Had the contra ctor
followed these best practices, it could have avoided many of the problems identified in
this report. Finally, in its comments, USAID/Iraq stated that a lack of support and
commitment by some officials within the Ministry of Finance hindered the implementation
of the Iraq Financial Management Information System. T hese issues are discussed
further in the following sections.




2
 An information technology (IT) or other a utomated system that is technologically obsolete. It ma y be too
expensive to update or repl ace, but it is still nee ded for the compan y’s operations and thus is kep t
operational although a newer system is in use.


                                                                                                         6
Some Contract Deliverables Were
Not Completed

    Summary. Some key contract deliverables wer e not completed, and Government
    of Iraq employees were not fully satisfied with t he training provided. As a result,
    users cannot perform their work using the new system, and the Ministry of Finance
    has not accepted the Iraq Financial Managem ent Information Syst em as their
    system of record. To implement the system, USAID/Iraq used a cost-re imbursable
    contract that does not specifically require the contractor to complete contract tasks
    aimed at achieving the intended program results. In ad dition, in its comments,
    USAID/Iraq stated that a lack of su pport and commit ment by some off icials within
    the Ministry of Finance of the Gove rnment of Iraq hindered the implementation of
    the Iraq Financial Management Information System.

Modification no. 21 to the Economic Governance II contr act, signed September 13,
2008, incorporated USAID’s respo nsibilities in the Janua ry 2008 memorandum of
understanding for impl ementing the Iraq Financial Management Info rmation System,
plus additional tasks re lated to successful implementation of the syste m. Modification
No. 21 contained 9 contract deliverables with 59 associated tasks.

The contractor reported at the end of June 2009 that several contract deliverables from
modification no. 21 had not been achieved. Ho wever, USAID stated that the Economic
Governance II contract was for level of effort, 3 and therefore the contractor could not be
held accountable for deliverables not completed. Because these critica l tasks were not
accomplished, a functional Iraq Financial Management Information System could no t be
implemented.

Handover of the Iraq Financial Management Information System. The January 2008
memorandum of understanding required that the Iraq Financial Management Information
System be removed from the Ministry of Fin       ance and located on t he BearingPoint
compound, which was located in the International Zone, Baghdad, Iraq. Modification no.
21 stated that the handover of the i nformation system to the Government of Iraq will be
considered completed when the USAID advis ers have addressed the technical issues
that have been formally identified and the system’s server equipment has been returned
to the Ministry of Finan ce. Although the server equipme nt has been returned to the
ministry, BearingPoint reported that the handover of the system has not been achieved,
stating:

        The Ministry of Finan ce has signed for receipt of the equip ment, and the
        server set-up is in process. Desp ite many attempts to get the Ministry of
        Finance to fully accept the system, the Direct or General of Budget h as
        continued to prefer use of the old legacy system despite its signif  icant
        disadvantages.

Budget and Purchasing Modules. In September 2006, the U.S De partment of State
entered into two contracts with BearingPoint to implemen t the budget and purchasing
modules to interface with the Iraq Financial Manageme nt Information System. The
3
  According to Federal Acquisition Regulation (FAR) 16.306 (d) ( 2), level-of-effort awards obligate the
contractor to devote a specified level of effort for a stated period.


                                                                                                      7
budget module would resolve man y of the difficulties encountered in executing the
Government of Iraq’s budget. The purchasing         module was intended to assist Iraqi
ministries in planning and executing their purchasing process more effectively. Although
the project was temporarily shut down in May 2007, the con tracts continued to
accumulate costs thr ough September 200 7. The contracting             officer’s technical
representative noted on the last invoice for the budget module that, because of the 2007
shutdown, further review of the pa yments was warranted. A total of $4.8 million was
paid for the budget and purchasing modules.

In January 2008, USAID assumed responsibilit y for the budget and pu rchasing modules
and resumed work on t heir implementation thr ough modification no. 21. The bu dget
module would resolve many of the difficult ies encountered in executing the Government
of Iraq’s bu dget. The purchasing module was intended t o assist Ira qi ministries in
planning and executing their purch asing process more eff ectively. Modification no. 21
required implementation of the bu dget and purchasing modules. The se modules have
been interfaced with the information system, but they have not been co nfigured to serve
Iraqi users’ needs, and no training was provided. Although the budget module is not in
use, the Ministry of Finance received a bill for 40 user licenses.

BearingPoint configured the budget and purchasing         modules unilaterally, without
appropriate input from the syste m users at the Ministry of Finance. According to
BearingPoint, they deve loped configuration documents for the budget module on the
basis of their understanding of the budget process and de livered the documents to the
Iraq Financial Management Info rmation System software vendor, FreeBalance.
Similarly, BearingPoint chose to co nfigure the purchasing module unilaterally, without
the appropriate input from the s ystem users at the Mi nistry of Finance. For the
purchasing module, BearingPoint stated that, in the ab sence of d irect inputs from the
ministry, the module had been conf igured to a utomate standard purch asing functions
and practices as they are outlined and described under Iraqi law.

BearingPoint subsequently determined that the purchasing module configuration did not
meet the Ministry of Planning’s user requirements and recommended conducting a gap
analysis 4 and reconfiguring the module to meet the Iraqi re quirements. However, the
contract ended without completion of these t asks. USAID stated that, if fu       nding
continued for the information system project, no further work on the purchasing module
would be included.

Offline Data-Entry Tool. The system is Internet based, but not all o f Iraq’s spending
units have access to Internet connections, particularly in the more re mote locations, and
Internet service around the country is unreliable. Currently, 80 spending units in Iraq do
not have Internet service. Therefore, the development and implementation of an offline
data-entry tool was in cluded as a deliverable in modification no. 2 1. Bearing Point
designed the tool to allow end users at spending units to input accoun ting transaction
data offline for uploading either thr ough a manual process or when In ternet service is
available. Because the new information system is a Web-based system, Internet access
is critical to its success as a governmentwide accounting system.



4
  “Gap analysis” is an assessment tool to help identify differences between information systems or
applications. A gap is sometimes called "the space between where we are and where we want to be."


                                                                                                8
BearingPoint developed the tool and delivered it to the Ministry of Finance in August
2009 (after the contract ended) via an e mail, including a user guide. The Ministry of
Finance systems admini strator downloaded the tool and found that it did not mee t the
users’ needs of the Iraqi Financial Management Information System.

Crystal Reports. The new information system can provi de only a limited numb er of
reports, and it cannot generate 17 of the reports recomme     nded by th e International
Monetary Fund. The inability to p roduce useful reports is one of the system’s cr itical
shortcomings. In USAI D’s response to a prior audit findin g 5 on this problem, USAID
stated that advanced reporting features were available with the addition of Crys     tal
Reports in 2005 and that reporting was no longer a problem.

Modification no. 21 called for BearingPoint to complete and install      Crystal Reports
software and provide te chnical assistance to better prepare the Government of Iraq to
use the reporting tools of the new information system. Crystal Reports is an off-the-shelf
reporting software application that allows users to access data repositories and create
various reports using tha t data. The new information syste m can provide only a limited
number of reports—it could not generate 17 o f the report s recommended by the IMF.
Crystal Reports would enhance the system users’ ability to generate reports.

Despite USAID’s assertion that Crystal Report s had resolved the rep orting problem,
Crystal Reports training was not pr ovided to the Ministry of Finance staff. Furthermore,
although Crystal Reports was installed on the new information syste m, the Mini stry of
Finance’s systems administrator was not authorized to acce ss it. In addition, altho ugh
the software is not in use, the Ministry of Finance has received a bill for 10 user licenses.

Relationship With the Vendor. Modification n o. 21 included two deliverables rela ting
to relationships between the Ministry of Finance and t   he software and hardware
vendors, as follows:

   Facilitate relationships between Ministry of Finance IT staff and hardware and
    software vendors to a llow Ministry of Finan ce to assume an ownership role over
    system software.

   Facilitate communications between FreeBalance,                          other    software      support
    vendor/developers, and the Ministry of Finance.

The Ministry of Finance information technolog y (IT) staff stated that BearingPoint had
not provided contact information for the soft ware and hardware vendors (such a s
FirePass and Hewlett Packard Company) other than FreeBalance. Wh en the IT st aff
tried to make contact with the vendors, t hey were denied access be cause they were not
listed as the licensed owner. BearingPoint staf f was no lo nger in Iraq, and we did not
contact them for an explanation. Additionally, when the auditors discussed this issue
with USAID/Iraq program officials d uring the audit field work, they stated that they were
aware of the problem and were working to address it.

Training. BearingPoint reported t hat it had tr ained 959 individuals fr om 245 spending
units, totaling 4,393 in dividual workdays of training. Tra ining was mentioned in 4 6

5
 Office of the Special Inspector General for Ir aq, Report No. SIGIR-08-07, “Efforts to Implement a Financial
Management Information System in Iraq,” January 25, 2008.


                                                                                                           9
percent (27 of the 59) of deliverables tasks in modification no. 21. Although the training
represented a large effort, Iraqi system users were not satisfied with the tra ining
provided.

According to Ministry o f Finance IT staff, the training con sisted of presentations with
handouts rather than hands-on training on actual computers. Therefore, we were told,
that the IT staff came away from t he training without the skills they n eeded to assume
their responsibilities on the system. Iraqi system users also noted that the training had
been very basic and had not included training on producing reports.

Testing. No system-response testing was perf ormed to determine whether the system
could support users from the 250 spending unit s connected to the system. The Ministry
of Finance IT staff stated that no one from their department had be en included in
BearingPoint’s testing.

Impact of Government of Iraq Support. In its comments, USAID/Iraq stated th at a
lack of support and commitment b y some officials within the Ministry of Finance of the
Government of Iraq hindered the implementati on of the Iraq Financia l Management
Information System.

Impact of Contract Type. USAID used cost-plus-fixed-fee, level-of-effort term contracts
for both the Economic Governance I and Eco nomic Governance II programs. In a
January 2008 audit re port, 6 the S pecial Inspector General for Iraq Reconstruction
questioned the use of this type of c ontract for these awards, stating th at, according to
the Federal Acquisition Regulation, the cost-plus-fixed-fee contract gives the contractor
only a mini mum incentive to control costs and is more suitable for the performance of
research or preliminary exploration or study, a nd when th e level of e ffort required is
unknown (FAR subpart 16.306). USAID/Iraq disagreed and stated that it had made the
right choice in choosing cost-plus-fixed-fee, level-of-effort term contracts for Economic
Governance I and II be cause these contracts p rovided the maxi mum flexibility that the
Iraq environment needed.

In addition, this type of contract does not require that the contractor complete and deliver
the specified end prod uct, but merely a specified level of       effort for a stated period.
Accordingly, USAID officials stated that the contractor could not be held accountable for
noncompletion of deliverables under level-of-effort contracts.

Given the minimal incen tive to control costs, Federal Acquisition Regulation 16.301.3(a)
state that a cost reimbursement contract may be used only when two conditions are met:

   First, the contractor’s accountin          g system i s adequate for determining costs
    applicable to the contract.

   Second, appropriate government surveillance during performance will provide
    reasonable assurance that efficient methods and effective cost controls are used.

However, USAID/Iraq did not adhere to either condition.


6
 Office of the Special Inspector General for Iraq, Report No. SIGIR-08-07, “Efforts to Implement a Financial
Management Information System in Iraq,” January 25, 2008.


                                                                                                        10
In regard to the adequate accounting system, on August 27, 2004, the Defense Contract
Audit Agency issued an audit report noting that Bearing Point had implemented a    new
accounting system which had yet to be evaluated. On September 3, 2004, USAID/Iraq
awarded the Economic Go vernance II contract. Subsequently, on May 16, 2006 , the
Defense Contract Audit Agency issued an audit report noting that Bearing Point’s n ew
accounting system was inadequate. Specifically, the report stated that the contract or’s
control environment an d overall accounting co ntrols were inadequate. In 2007, 2 008,
and 2009, t he Defense Contract A udit Agency repeated th e same exact warning each
year. Nevertheless, USAID/Iraq did not a djust its oversight to account for this
vulnerability.

In regard to governmen t surveillance, cost reimbursement contracts re quire extensive
monitoring and evaluation to ensur e that the contractor is progressing. However, our
prior audit of the Economic Gove rnance II program 7 disclosed that USAID had not
developed a systemat ic process for performance ma           nagement and monitoring.
Specifically, USAID offi cials did not establish a systematic mechanism to monito r the
myriad tasks and thus could not track whether the tasks had been performed, were on
schedule, or were behind schedule. Without such knowledge, the mission was unable to
manage the contract effectively or measure improvements in the seven functional areas
in which the Economic Governance II program was meant to have the greatest effect.

USAID’s Guidebook on Acquisition and Assistance states that at t he closeout of a
contract, the contracting officer’s t echnical representative confirms physical completion
of the work under the contract a nd administratively app roves the final voucher for
payment. The contracting officer’s technical r epresentative should re commend to the
contracting officer acceptance or r ejection of all contract deliverables. If the wo rk is
judged unsatisfactory, the contr acting officer’s techn ical representative and the
contracting officer must determine what further a ctions are required, seeking the advice
of legal counsel if necessary. As of the end of this audit’s fieldwork, USAID had not yet
determined whether t he contract deliverables were satisfactorily a chieved. Of the
approximate $223 million obligated for this contract, approximately $ 222 million had
been disbursed as of March 1, 2010.

The noncompletion of contract deliverables directly affecte d the contractor’s abilit y to
implement the Iraq Fina ncial Management Information System. However, because the
contractor has demobilized and ha s also f iled for Chapter 11 bankru ptcy, we are not
making a recommendation.




7
   “Audit of USAID/Iraq’s Economic II Gove rnance Program,” Audit Report No. E- 267-09-004-P, June 3,
, 2009.


                                                                                                  11
The Iraq Financial Management Information
System Is Not Meeting System Users’ Needs

    Summary. The Iraqi system users cannot use the Iraq Financial             Management
    Information System to perform their work. Alt hough IT b est practices provide a
    framework for achieving success in implementing IT projects, USAID did not ensure
    that its cont ractor had f ollowed best practice s in implemen ting the Ira q Financial
    Management Information System. In addition, in its comments, USAID/Iraq stated
    that a la ck of support and commitment by some officials within the         Ministry of
    Finance of the Government of Iraq hindere d the implementation of the Ira q
    Financial Management Information System. As a result, aft er 6 years of work, the
    system is not functioning as the system of record for the Government of Iraq.

Although the Iraq Financial Management Informat ion System achieve d some success,
the Government of Ira q has not accepted th e system, i n part because it does no t
successfully perform accounting tasks. A ccording to USAID/Iraq, a lack of support and
commitment by some officials within the Iraqi Mi nistry of Finance of the Govern ment of
Iraq hindered the implementation of the Iraq Financial Management Information System.
In fiscal years 2005, 20 06, and the beginning of 2007 8 , Iraqi system users entered d ata
into both th e Iraq Fina ncial Management Information Syst em and the Govern ment of
Iraq’s legacy system, in order to test the accuracy of the dat a. For these fiscal years the
data entered into the new system successfully matched d ata entered in parallel in the
Government of Iraq’s le gacy system. Ho wever, problems arose in the 2008 data entry,
and the new system’s data did not match data from the le gacy system. One ca use of
the discrepancy was the lack of coo peration of the spending units in fully entering the
data. While the system is capable of producing overall financial state ments, it is not a
functional tool at the sp ending unit level for perf orming the day-to-day accounting work
of these entities. Syste m users reported that th e new system functioned only as a data
entry tool and that they used the le gacy system as the system of record for cond ucting
their routine activities. Thus, for 4 fiscal years the spen ding units performed labor
intensive parallel data e ntry 9 to test a system that had not provided the capability to do
their jobs.

The issues listed in the table bel ow illustrate why the Government of Iraq’s le gacy
system, rather than the Iraq Financial Managem ent Information System is used a s the
system of record.




8
  Data was entered in 2007 until the system was shut down.
9
  Parallel entry requires both the old a nd new systems to run simulta neously for a p eriod of time. T his
method is expensive and should only be used in rare special cases when the users need to retain detailed
legacy data to support specific legal requirements or critical transactions that c an only be captured in the
legacy system.


                                                                                                         12
    Table 1. Iraq Financial Management Information System Functional Issues
                         Identified by Iraqi System Users

Functionality                                         Issues
Unique invoice    The system does not allo w users to input invoice numbers. In stead, the
numbers           system independently assigns a number to ea ch invoice entered into th e
                  system. The voucher numbers are given in sequence as in the order they
                  are entered by any sp ending unit in the country. For exam ple, invoices
                  entered by the followi ng ministries in sequence might result in: Ministry of
                  Water—invoice 1; the Ministry of Education—invoice 2; the Ministry of
                  Justice—invoice 3; and so on.
Bank              The system cannot provide information needed to perform bank
reconciliations   reconciliations. Sp ecifically, the syst em does not provide a beginning
                  balance, outstanding checks, and incoming checks. Printed rep orts do not
                  list information entered regarding the transactions.
Bank accounts     One spending unit re ported that it had several b ank accounts, but th e
                  system only supports one bank account.
Beginning         The system assigns opening account balances of zero rather than carrying
balances          over closing balances from the previ ous accounting period. Therefore,
                  correct opening balances must be entered manually.
Reports           System users could n ot print many of the repo rts they neede d, and th e
                  reports that could be p rinted were not useful. For i nstance, a printed report
                  of invoices showed st rings of tran sactions from a cross the coun try that did
                  not identify where the invoice had originated or a description of the invoice.
                  The Iraq Fi nancial Management Information System doe s not provide
                  transaction reports for sp ecific spending units, dep artments, or accou nts at
                  the country level. In addition, data from the system cannot be downloaded
                  into Excel spreadsheets.
Trial balance     The system does not provide an accurate and complete trial balance and
                  yields only a partial trial balance.
Budget            (1) The Ministry of Finance budget st aff cannot add a supplemental budget
                        if the budget is increased during the fiscal year. The Ministry of Finan ce
                        budget staff was not trained to enter the budget. Instead, this task was
                        always done by the contractor. The contractor stated that the problems
                        reported by the budget staff could be resolved by the use of the budget
                        module. The budget module has been installed, but it is not confi gured
                        to Iraqi needs, and no training has been provided.
                  (2) The system will not a ccept more th an one b udget. For one example,
                        one spending unit stated that it has two budgets—an operational and a
                        capital budget.
Chart of          In the new system, the systems administrator cannot add accounting
accounts          classifications to the chart of a ccounts; the a ccounting classifications must
                  be added by the software vendor, creating delays.
Auto save         If Internet se rvice is interrupted while a user is e ntering a tran saction, the
function          parts of the transaction that were entered before service was interrupted are
                  not saved. This can make long transactions time consuming and frustrating
                  to enter.
Flags for         If a transa ction is ente red that exceed s the allo cated budget ceiling for the
exceeding         account, the system does not inform the user that it will not accept the
budget            transaction until the transaction ha s ended. If a string of tran sactions are
                  entered, the system does not identify which transaction exceeded its budget,
                  and identification of the problem is time consuming and difficult.
System            Ministry of Finance staff reported that they received numerous complaints
response time     from spending units regarding a long response time using the Iraq Financial
                  Management Information System.


                                                                                               13
IT Best Practices Were Not Utilized. Practical prob lems in the Iraq Finan cial
Management Information System arose beca use BearingPoint did not use IT best
practices. BearingPoint stated tha t they had followed a “best practices” framework
closely aligned with th e Control Objectives for Informati on and Rel ated Technology
(COBIT), 10 although not fr om the start of the prog ram. Howe ver, BearingPoint did no t
employ critical IT best practices in the implementation of the Iraq Financial Management
Information System.

Studies of the impleme ntation of IT systems have identified best practices that assist in
the success of IT imple mentation. COBIT pro vides managers, auditors, and IT users
with a set of generally accepted measures, indicators, processes, and best practices that
help derive the most benefit from using IT systems and developing appropriate IT
governance and controls. These best practices have been described in various sources,
including USAID guidance. 11 IT b est practices include system selection based on
finding a best-fit syste m, developing a concept design, obtaining user requirements,
obtaining customer buy-in, and performing system testing.

   Best-Fit System. Obtaining a best -fit system involves surveying the marketplace,
    evaluating different options, and id entifying the solution th at best suit s system and
    user requirements.

    In its 2003 technical proposal to USAI        D, BearingPoint recommended the
    implementation of Fre eBalance Financials as the core software application to
    support the Iraq Financial Management Information System. BearingPoint select ed
    FreeBalance as the Iraq Financial Management Information System software without
    conducting any analysis to determine what system would best fit the Iraqi accounting
    system. BearingPoint stated that they had chosen the FreeBalance system because
    it had worked in other environments and it could be quickly implemented.

   Concept Design. A concept design includes such elements as u nderstanding the
    available infrastructure and business culture, understanding user requirements and
    reporting needs, obtaining host country cooperation, and developing a proposed cost
    and timeframe for implementing the system.

    In 2005, the Internatio nal Monetary Fund (IMF) noted that no conce pt design h ad
    been developed for the Iraq Financial M        anagement Information System an d
    recommended that USAID develop a con cept design. As a result, FreeBalance
    provided a concept design. However, the I MF judged the concept design to be
    inadequate and stated that it did not provide sufficient information about specific Iraqi
    business processes. USAID responded that the concept design was not required by
    the contract. The IMF continued to recommend the development of a n appropriate
    concept design and asserted that n ot establishing a conce pt design u p front could
    result in co stly and lasting consequ ences that could be avoided. The subsequen t
    problems and inability to implement the Iraq Financial        Management Information
    System support this conclusion.


10
   COBIT is a set of best practices (framework) for IT management created by the Information Systems Audit
and Control Association and the IT Governance Institute in 1996.
11
   USAID, “Integrated Financial Management Information Systems—A Practical Guide,” January 2008.


                                                                                                       14
      User Requirements. Th e design of an IT syst em should be preceded by detaile d
       analysis to identify current functional processes, proced ures, user profiles, an d
       requirements that the new system will need to support.

       BearingPoint representatives stated that, at the initiation      of the Ira q Financial
       Management Information System p roject, they had not use d an IT fra mework that
       incorporated best practices. The software vendo r, FreeBalance, explained that best
       practices for obtaining user requirements were not followed because of the need to
       accelerate the process of imple menting a financial system for Iraq. USAID
       guidance 12 supports this reasoning and states that exceptions occur in conducting a
       detailed functional analysis—particularly in fragile or post conflict environments—
       when the need to track and contr ol expenditures is too urgent to wait for this
       functional work to be completed. As noted in the January 2008 report (see footnote
       5 on page 9) by the Special In spector General for Iraq R econstruction, IMF an d
       World Bank studies ha ve shown t hat financial-management information system
       projects in developing countries often achieve only limited success because they are
       not designed to meet users’ needs o             r functional requirements. Th          e
       functional-requirements documents should serv e as the b lueprint for the system
       development; if the blueprint is wrong, problems are difficult to rectify later. Because
       the Iraqi system user requirements were not followed, the Iraq Financial
       Management Information System, after 6 years, is not configured to me et the Iraqi
       system users’ needs and has not been implemented.

      Customer Buy-in. The system must have the customer’s support and ownership
       from the beginning.

       After 6 years of effort, t he Iraq Fin ancial Management Information Sys tem has not
       been fully implemented and has not achie ved its main goals of             helping th e
       Government of Iraq formulate, exe cute, and monitor central government budgets.
       The system has not be en accepted by the Ministry of Fina nce, and it is not being
       used as the system of record for the Govern ment of Iraq. In addition, as shown in
       table 1, Iraqi system users identifie d numerous functionality issues with the system.
       In its comments, USAID/Iraq stated that a lack o f support and commit ment by some
       officials within the Ministry of Finance of the Govern    ment of Iraq hindered the
       implementation of the Iraq Financial Management Information System.

      Testing. The purpose of the testing phase is to verify that t he application software
       works, as d esigned and developed. Test ing also verifies that the software aligns
       with the Ag ency’s future business processes. Tests inclu de, among others, load
       testing, which tests the system’s ability to perf orm when multiple users are logge d
       on, and user acceptan ce testing, which identifies the compliance of the financial
       system with requirements and business processes.

       BearingPoint did not per form load or user acce ptance tests. As a result, the stated
       practical issues were not identified and resolved.



12
     USAID, “Integrated Financial Management Information Systems—A Practical Guide,” January 2008.




                                                                                                     15
                                         13
In its October 2007 interim report,          the Special Inspector General for Iraq
Reconstruction recommended that, before further expenditures were made on the Iraq
Financial Management Information System, USAID obtain a complete assessment on
the system to determine whether requirements had been adequately defined, sp ecific
milestones for achieving those require ments had been set, and system develop ment
was headed in the r ight direction. It was further recommended that the assessment be
conducted by an inde pendent third party with expertise in develop ing international
financial management information syst ems. USAID/Iraq agreed with                   the
recommendation and stated that they would proceed to contract for an independent
technical assessment of the system.

However, USAID/Iraq did not implement the recommendations as intended. USAID/Iraq
restarted work on the I raq Financial Management Information System in January 2008
without first obtaining an independent assessment of the system. USAID/Iraq issued a
statement of work for the assessment in August 2008 and contracted through USAID’s
existing monitoring and evaluation contract w ith International Busine ss & Tech nical
Consultants to do the work. International Bu siness & Technical Con sultants issued a
report on January 20, 2009; 14 1 ye ar after work had already resumed and after an
additional $6.5 million had been spent on the system. We did not assess the scope of
work performed or make a determination of the qualifications of International Business &
Technical Consultants to conduct this required technical review. However, the January
2009 report states that it did not make site visits t o 10 spending units as planned, and it
did not identify any system issues beyond those related to reporting capabilities.

At the audit entrance conference o n August 1 9, 2009, USAID/Iraq stated that t hey
planned to engage in 6 more mo nths of work (estimate d at $1.5 million) on t he Iraq
Financial Management Information System. During the audit fieldwor k we contacted
officials from the system’s software vendor, FreeBalance, to learn th eir perspective on
the system’s issues. We also provided cont act information for USAI D/Iraq, the Ministry
of Finance, and the World Bank to t he FreeBalance officials. These off icials stated that
they are motivated to assist the Government of Iraq in resolv ing the system’s problems.
FreeBalance further sta ted that the y are the experts on the ir system and that they are
better qualified to resolve the problems than the intermediary contractor (BearingPoint).
USAID’s funding of the FreeBalance services, through the BearingPoint contract, ended
in June 20 09. The Ir aqi Government has not assumed this respo nsibility, although
FreeBalance has not terminated t heir services. Ministry of Finance representatives
stated that t hey would like to work with FreeBalance to det ermine whether the syst em
can meet their needs. As documented in this report, many problems will need to be
resolved before that can happen.

Subsequent to this audit’s fieldwork, FreeBalance arranged to come to Iraq in December
2009 to meet with the Ministry of Finance and discuss the system’s problems. USAID
stated that they hope d this would facilita te completing the work o n the syst em.
Unfortunately, the Ministry of Finance was bombed on December 8, 2009 (the second
bombing this year), and the visit by FreeBalance was deferred until later in 2010. On the


13
   Special Inspector General for the Reconstruction of Iraq, Report No. SIGIR-08-001, “Interim Report on the
Efforts and F urther Actions Needed to Im plement a Financial Management Information System in Iraq,”
October 24, 2007.
14
   International Business & Technical Consultants, Inc., “Situation Assessment—Iraq Financial Management
Information System,” January 20, 2009.


                                                                                                        16
basis of this information and the findings in the report, we         make the following
recommendation:

   Recommendation 1. We recommend that USAID/Iraq refrain from further
   funding of the Iraq Financial Management Information System until the mission
   develops a documented action plan that specifically addresses ongoing
   impediments to the successful implementation and sustainability of the system.
   This action plan should include the following elements: (1) identification of
   outstanding technical problems in full collaboration with the Ministry of Finance of
   the Government of Iraq, (2) determination of whether these outstanding technical
   problems can be resolved and by whom, (3) resolution of outstanding technical
   problems before training is provided in an area with functional issues, (4) training
   designed to meet the needs identified by Iraq system users from the Ministry of
   Finance, and (5) identification of and adherence to information technology best
   practices, such as Control Objectives for Information and Related Technology.




                                                                                          17
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Iraq concurred with our reco mmendation. According to the mission, all funding
has concluded, and USAID/Iraq is not planning any further funding of the Iraq Financial
Management Information System because of difficulties resulting from the lack o f
sufficient support at appropriate levels within th e Ministry o f Finance. USAID/Iraq also
stated that if the Ministry of Finance were to demonstrate an unequivocal commitment to
support the Iraq Finan cial Management Information System, and requests USAID’s
assistance, the mission could consider additional support. If such support were provided
in the future , it would b e developed using an a ction plan t hat includes the elements in
the OIG recommenda tion. In light of these comments,                     we consider that
recommendation 1 has both a management decision and final action.

Although USAID/Iraq a greed with the report recommendati on, it thought that the report
was too critical of USAID/Iraq and its contracto r. As a result, the mission provide d a
large number of detaile d comments expressing disagreement with the report’s sp ecific
findings and conclusions. We addr essed the issues spe cific to our au dit findings, and
have made changes t o this final audit repo rt to in corporate additional inform ation
provided by the mission . However, these chang es have not changed the results of our
audit, and we disagreed with most of the mi ssion’s comments. In some cases, the
comments were based on inaccurate, unsupported, or irrelevant information. In       other
cases, the mission’s comments appeared to reflect the opinions of t he contractor who
drafted the mission’s comments, which were different from the opi nions we reached
based on our audit.

Furthermore, we discu ssed with mission officials our concerns ab out contractor
personnel drafting the response to our draft audit report. Our concerns are based upon
FAR Subpart 7.5, which essentially states that respondin g to audit r eports from the
Inspector General is considere d an inherently government function. 15 However,
USAID/Iraq disagreed with our concerns because the mission is now in the process of
hiring this contractor as a Foreign Service Limited employee for Iraq. 16

The following are USAID/Iraq’s criticisms of our draft audit report dated March 4, 2010:

(1)   According to USAID/Iraq, the dra ft report was lacking in critical information
      concerning Government of Iraq support for the Iraq Financial Management
      Information System. In numerous places the d raft audit report stated that the
      Government of Iraq had not accepted or supported the Iraq Financial Management
      Information System, an d suggested that USAI D was careless in de signing and
      implementing a project without Government of Iraq support.


15
   According to FAR Subpart 7.5-Inherently Governmental Functions, section 7.503 Policy, contractors shall
not be used for the performance of inherently governmental functions, such as the drafting of Congressional
testimony, responses to Congressional responses, or agency responses to audit reports from the Inspector
General, the Government Accountability Office, or other Federal audit entity.
16
   Foreign Service Limited program hires non career officers for specific term appointments.


                                                                                                       18
We disagree. The draft audit report did not state that USAID/Iraq       was careless in
designing and implementing a project without Govern ment of Iraq support. The draft
report stated that BearingPoint followed a “be st practices” framework closely alig ned
with the Control Objectives for Information and Related Technology, although not fr om
the start of the program. USAID/Iraq acknowledged this in its respon se, noting t hat it
was unfortunate that the conce ptual framework document for the Iraq Financial
Management Information System was neither supported nor endorsed in the mid-2003
when the project commenced. In a ddition, the draft audit report stated that in Oct ober
2007, the Special Inspector General for Iraq recomme          nded that before further
expenditures were made on the Ira q Financial Management Information System, USAID
should obtain a complete assessment of the system to determine whether requirements
had been adequately defined, specific milestones for achieving those requirements had
been set and system development was headed in the right direction. Although it agreed
with the recommendati on, USAID/Iraq did not implement the recommendation as
intended.

(2)   According to USAID/Iraq, the draft report was lacking information concerning the
      Government of Iraq’s own responsibilities.

We disagree. For example, the draft report stated that early data entered into the new
system successfully matched data entered in parallel in the Government of Iraq’s legacy
system. However, pro blems arose in the 2008 when the new system’s data did not
match data from the le gacy system. One cause for the discrepancy was the lack of
cooperation of the spending units in fully entering the data. The draft report went on to
explain the circumstances that led to this lack of cooperation.

(3)   According to USAID/Iraq, the draft audit report also seemed to assume that USAID
      and its implementing partners controlled the Ministry of   Finance, and had th e
      power and authority to compel the Ministry of Finance to take actions that were
      necessary for the eff ective implementation of Iraq Financial Management
      Information System.

We disagree. Through out our rep ort, and in particular under Table 1, we specifically
identified functionality issues due to the lack of analysis to determine best fit, concept
design, and users’ requirements which culminated in the dissatisfa ction of the users of
IFMIS.

(4)   According to USAID/Iraq, the draft report was lacking in information concerning a
      variety of circumstances and facto rs, unique t o Iraq, that were well beyond the
      control of USAID or its implementing partners which had a significant impact o n
      effective implementation of Iraq Financial Management Information System.

We agree. The audit report now includes     information concerning th e kidnapping of
contractor employees in May 2007 and its immediate aftermath.

(5)   According to USAID/Iraq, the draft report was lacking in infor mation concerning the
      resistance to IFMIS on the part of lower level Ministry of Finance officials.

We disagree. During the audit        field work, users of IF MIS only p ointed out the
functionality problems which made it difficult to u se IFMIS. On the contrary, the Ministry
of Finance officials expressed to the auditors how an xious they were for the vendor


                                                                                        19
FreeBalance to come to Iraq to resolve these functionality issues. Furthermore, Ministry
of Finance officials also stated t hat they wanted the I raq Financial Management
Information System, but only if it is functioning and meets their user needs.

(6) According to USAI D/Iraq, the dra ft report did not reflect adequately USAID’s
    perspective on the dif ficulties faced in the Iraq Financial Management Information
    System project. The au ditors’ interviews of USAID/Iraq staff members were limited
    and were mainly focused on requesting copies of documents. In addition, the audit
    findings were made and the audit report was issued in draft prior t o hearing or
    considering USAID’s views on what went wrong with the Iraq Financial Management
    Information System.

We disagree. During the course of the current audit       and our p revious audit of
USAID/Iraq’s Economic Growth II program (which included the implementation of the
Iraq Financial Management Information System), the auditors had numerous discussions
and communications with the following parties:

   USAID/Iraq mission staff.

   Contractor staff from BearingPoint.

   International Monetary Fund officials in Washington D.C.

   World Bank officials in Baghdad Iraq.

   Software vendor officials from FreeBalance in Ottawa, Canada.

   United Kingdom government official from Department for International Development
    in Baghdad, Iraq.

   Officials from the U.S. Department of Treasury in Baghdad, Iraq.

   Officials from the Special Inspector General for Iraq Reconstruction (SIGIR).

   Officials from the Government Acc       ountability Office (visiting Baghdad from
    Washington D.C).

   Government of Iraq officials from t he Ministry of Finance, Ministry of Planning an d
    Development Coordination, and the Iraq Board of Supreme Audit.

The following are summaries of discussions the auditors had with various organizations
listed above:

Discussions with USAID/Iraq’s mission staff included:

   Whether or not an assessment o f the current system in Iraq was made. T           his
    assessment should have included d efining users needs, parallel testing between the
    current system and the implemen ted system; and access to elect ricity by all
    spending units. The mission official stat ed that, because the Coalition Provisional
    Authority had started a nd directed this pro gram, it was implemented without the


                                                                                      20
    consent or assessment from the Ira qis and did not have Government of Iraq buy in.
    The mission official further stated that there were continuous problems with electricity
    and connections for the internet, which led to delays and interruptions.

   Problems concerning the accounting and tracking of the Economi       c Growth I I
    program costs including costs spe cific to Iraqi Financial Managemen t Information
    System.

   Request for project implementation plans.

   The implementation of SIGIR’s recommendation based on their audit report of the
    Iraq Financial Management Information System, dated October 24, 2007.

   The implementation status of the Iraq Financial Management Information System a s
    of August 2009, prior to the start of the audit.

   Periodic audit briefings with missio n officials included discussion s of core syste m
    functionality problems, Government of Iraq’s lack of acceptance of the Iraq Financial
    Management Information System a s the offici al system of record, system issues
    caused by software and accounts st ill being registered under the contractor’s name,
    budget and purchasing modules functionality, and system equipment and intern et
    connectivity problems.

   Auditors’ communications with the software vendor FreeBalance.

Discussions with contractor staff from BearingPoint included:

   The accounting core, budget, a      nd purchasing modules of the Iraq Financial
    Information System.

   Relationship with the Ministry of Finance and Ministry of Planning.

   The rollout of equipment at various spending units.

   Crystal reports.

   The trial balance.

   The lack of alignment with COBIT at the beginning of the project.

   Ongoing work with the budget and procurement modules.

   The status of the budget and procurement modules.

   Location of IFMIS server equipment.

Discussions with officials from the International Monetary Fund included:

   Lack of a concept design before the implementation of the I              raq Financial
    Management Information System by BearingPoint.


                                                                                         21
   Deficiencies with the Iraq Financial Management Information System.

   Lack of system concept design.

   Existing problems with the chart of accounts and the existing accounting framework
    for the Government of Iraq.

   The participation of software vendor FreeBalance in system development.

Discussions with World Bank official included:

   The inability for the Iraq Financia l Management Information System to generat        e
    reports for budget preparation, budget execution and procurement.

   Lack of system functionality and capability (according to the World Bank official).

   Constraints in proje ct implementation caused by the po or working relationships
    between USAID and its contracto r, BearingPoint, with t he Government of Iraq’s
    Ministry of Finance.

   Sustainability of the I raq Financial Management Information System, which
    according to the World Bank official, the Iraqis need and want.

Discussions with official from the software vendor FreeBalance included:

   Functionality problems the auditors identified during the audit.

   FreeBalance’s commitment to resolve functionality issues.

   Requests for supporting documentation for the purchase of the acco unting core,
    budget, and procurement modules for the Iraq Financial Management Information
    System.

   The flexibility of the system to   make configuration changes to meet Iraqi users
    needs.

   The budgeting and purchasing modules, which according to FreeBalance, they were
    not contracted to map to the system, to configure to users needs, or t o implement in
    the system.

Discussions with official from the United Kingdom’s Department for International
Development included:

   User needs analysis before purchasing the system, which according to the official,
    the contractor did not perform before purchasing the system.

   Lack of user acceptance testing by the contractor.




                                                                                          22
   DFID staff statements that no control checks existed for data entered, Crystal reports
    were not user friendly nor could they be produced from the system.

   Chart of ac count issues, which according to the official h ad been po orly managed
    and should be sorted out immediately before work can progress on the system.

Discussions with officials from the U.S. Department of the Treasury included:

   Treasury’s role with the implementation of        the Iraq Financial Management
    Information System a nd BearingPoint’s lack of cooper ation by never allowing
    Treasury staff to see a demonstration of the system.

   The budget and procurement module contracts.

Discussions with the Special Inspector General for Iraq Reconstruction included:

   USAID’s lack of sufficient oversight of their implementing contractor BearingPoint.

   BearingPoint’s management of the project, which according to SIGIR officials, did not
    include obtaining users’ requirements prior to the system’s design, the first and most
    critical step in program design.

   Issues with the Government of Iraq’s support for the system.

   Lack of system ability to produce useful ad hoc reports.

   Training not provided for maintenance of the system.

   USAID/Iraq’s lack of appropriate action in addressing SIGIR’s audit recommendation
    that the system be assessed prior t o restarting the project and before further funds
    were spent.

A meeting was held between USAID/Iraq officials and officials from the Government
Accountability Office which the audit team attended. Discussion topics included:

   Ongoing efforts to obtain a memora ndum of understanding between USAID/Iraq and
    the Ministry of Finance.

   The quality of training provided by BearingPoint to the Iraqis.

   Explanations as to why the fiscal ye ar 2009 Government of Iraq budget had not yet
    been uploaded into the system.

   The Government of Iraq’s quest ioning the selection of the softw are vendor
    FreeBalance by the contractor BearingPoint.

Discussions with the Ministry of Finance staff included topics such as:

   The ministry’s desire to have the Iraq Financial Management Information System a s
    long as the system meets their needs and functions properly.


                                                                                          23
   The Government of Ira q’s need to have direct communications with         the software
    vendor FreeBalance.

   The location of all syst em component modules including the accounting core, the
    budget module, the purchasing module, and the disaster recovery system.

   The continued use of t he legacy system as the officia l system of record for the
    Government of Iraq and not the Iraq Financial Management Information System.

   Functionality issues with the accounting cor       e module including th e lack of a
    functioning offline data entry tool and lack of system capability to download data from
    the accounting core system into Microsoft Excel spreadsheets.

   Lack of configuration of the budget and purch ase module based on I raq’s needs
    even though they received bills for user license fees.

   Dissatisfaction with training provided by BearingPoint.

Discussions with the Ministry of Planning and Development Coordination included:

   Ministry identified fun ctionality issues with the Iraq Financial Management
    Information System including the in ability to (1) provide a beginning balance, (2)
    conduct a trial balance, (3) perform bank reconciliations, (4) enter invoice numbers to
    link to specific transactions, (5) view the information entered into the system, and (6)
    provide useful reports.

   The purchasing module system which, according to officials, they were shown in May
    2009, but they never received user training.

   The inability of the system to print reports f   rom the Iraq Financial   Management
    Information System.

Discussions with the Iraq Board of Supreme Audit included:

   Problematic issues with the Iraq Financial Management Information System that
    were previously identified by the Board of Supreme Audit.

   Current functionality issues with the system.

   BearingPoint’s decision to select the internet-based Iraq Financial      Management
    Information System without taking into consideration the lack of internet connectivity,
    inconsistent electrical service, and lack of computer equipment in re mote locations
    throughout Iraq.

In regard to the mission commen t that the audit report was issued        in draft prior to
hearing or considering USAID’s views on wh at went wrong with th e Iraq Financial
Management Information System, during the ex it conference with mission officia ls on
December 10, 2009, the audit team disclosed in writing the audit findings in their entirety
including the issues of contract deliverables and functionality. We issued the draft report


                                                                                         24
to the mission for official management comments on March 4, 2010,—approximately
three months later.

(7)   According to USAID/Iraq, in February of 2007 t he former Minister of Finance ha d
      signed an Order making the Iraq Financial Management Information System the
      official account of record effective July 1, 2007. Subsequently, the     Minister of
      Finance issued a formal Ministerial Order on January 13, 2009, to all ministries and
      independent agencies which require d that Iraq Financial Management Information
      System become the official system of record for the Government of Iraq as of June
      1, 2009.

We disagree with both statements. First, the F ebruary 2007 document stated that the
Ministry of Finance will request the Council of Ministers to issue an or der to make the
Iraq Financial Management Information System t he official system of the Government of
Iraq’s budgetary, financial, an d accounting re cords for financial yea r 2009, only after
reconciling functionality with the legacy system. Second, the Ja         nuary 13, 2009 ,
ministerial order (issued five months prior to the anticipated handover) did not state that
the Iraq Financial Management Information System was to become the official syste m of
record for the Government of Iraq as of June 1, 2009. The document instructed users to
use the Iraq Financial Manageme nt Information System and to continue to use the
legacy system to prod uce the monthly trial balance. Fu         rthermore, the Directorate
General of Information Technology for Iraq’s Mi nistry of Finance confir med that the Iraq
Financial Management Information System is not the official system of record as of May
27, 2010, and has never been. This officia l also expressed the hope that the system
could still work if functionality issues can be resolved.

(8)   According to USAID/Iraq, the Iraq Financial Management Information System was
      a fully functional system that was ready to receive data and process it.

We disagree. This stat ement is at odds with our report’s conclusions and the mission’s
other comments. Acco rding to the contractor who drafted the missio n’s audit re port
response, the statement was only referring only to the a ccounting core module of the
Iraq Financial Management Information Syste m and not t o the budge t or procure ment
modules since those had not been either configured or impl emented. T he accounting
core module referred to in the stat ement above was the unmodified commercial-off-the
shelf package version provided by the vendor.

According to the memorandum of understanding between USAID/Iraq and the Ministry of
Finance in January 2008, the Ministry was su ppose to reaffirm its commitment to work
with the U.S. Government to immediately activate the budget and procurement modules,
and the Ministry of Finance was su pposed to fully execute the Ministry budget allo cated
to complete the implementation of t he Iraq Financial Management Information Syst em.
As a conse quence, whether the a ccounting core module was ready to receive 2009
budgetary data is not relevant because the budget and procurement modules had not
been implemented by t he end of th e contract. As such, the implementation of the Iraq
Financial Management Information System wa s not complete. Furthermore, (and in
conjunction with USAI D’s own statements) the accounting core module was not
designed to accommodate budget r equirements because th is functionality is contained
in the budget module. Because the budget module was not implemented, it constrained
the loading of the new budgets into t he Iraq Financial Management Information System.



                                                                                        25
The documentation provided by the mission did not support the claim that the accounting
core module was fully functional and ready to receive data.

In addition, USAID/Iraq provided two s lides from a World Bank         November 2003
presentation that stated that a financial management information sys    tem project on
average took 7 years to complete. If it was USAID’s opinio n that such a timeframe was
more reasonable, then pursuing a more compressed timeframe by aba ndoning IT best
practices was unwise.

(9)   According to USAID/Iraq, the contr actor did no t unilaterally configure t he budget
      module, but rather on ly turned on pre-loaded features without customized
      programming or configuration.

We disagree. The documents provided by the mission did not support this assertion that
only preloaded features were turned on. For in stance, the documentation contained a
copy of the FreeBalance Performan ce Budgeting Configuration Blueprint, dated October
26, 2008. The blueprint stated that the purpose of the document was to record the initial
configuration of the FreeBalance Performanc e Budgeting module i mplemented at the
Government of Iraq, Ministry of Finance Budget Office. The document further stated that
the module will be int egrated with the Core Iraq Finan cial Management Information
System and the settings described in the docu ment reflect the business processes and
reporting requirements at the time of implementation.

(10) According to USAID/Iraq, the draft report inco rrectly implied that the contractor
     configured the budget and purchasing modules “unila terally” without any prior
     consultation with the U.S. Government; and suggested, again incorrectly, that
     BearingPoint configured the mod ules without any cons ideration to, and the
     appropriate input from, the system users. Furth ermore, in order to assist with and
     to resolve many difficulties encoun tered with t he Iraqi Min istries in th e budgeting
     and purchasing processes, the Government of I raq and the U.S. Treasury agreed
     on implementing the m odules “bilaterally,” after identifying the Government of Iraq
     users’ needs.

We disagree. The word unilateral meant that the budget        and procur ement modules
were installed without the Govern ment of Ira q users’ in put. Relyin g on other U.S.
government agencies t o determine user nee ds is not an acceptable substitut e for
determining the best fit for user s’ needs in a country that does not have widespread
internet connectivity.

(11) According to USAID/Iraq, the Iraq Financial Management Information System was
     fully capable of generating useful and needed reports by utilizing the Crystal
     Reports software, which was added and installed into the system.

We disagree. USAID/ Iraq documentation sh owed that an interim approach was
recommended to the Govern ment of Iraq to generate reports. The recomme           nded
procedure (estimated at $102,250) required the use of data extracts from IFMIS into MS
Excel format while awa iting the full automation of Crystal Report W riter. Altho ugh
Crystal Reports software was added to the syst em, it was not capable of generating the
18 recommended reports specified by the International Monetary Fund.




                                                                                         26
(12) According to USAID/Iraq, significant training was undertaken and completed by the
     implementer.

We agree that significant training was provided by the implementer. However, our report
statement is that, according to Ministry of Finance IT staff, the tra ining consisted of
presentations with handouts rather than hands-on training on actual computers. The IT
staff came away from the training without th e skills the y needed to assume t heir
responsibilities on the system. The contract or did prov ide classroom training but
essentially provided it in a presentation format, not on a computer. Furthermore, during
a meeting between mission off icials and th e Government Accountability Office in
September 2009, a USAID mission official stated that the training provided by
BearingPoint was of poor quality and covered only basic procedures.

(13) According to USAID/Iraq, they and their implementing partner had made significant
     efforts to ensure that the Iraq Financial Management Information System meets the
     needs of users.

We disagree. For exa mple, the mission provided an April 2008 memorandum with a
series of questions identifying functionality issues from the Ministr y of Finance with
responses from the co ntractor. However, no further docu mentation was provided to
verify whether the issues had been resolved.

(14) According to USAI D/Iraq, the statements in the draft report re          flected a
     misunderstanding of how a level of effort, cost-reimbursement contract operates.

We disagree. There was no misunderstanding. The contract used by t he mission does
not hold the contractor accountable for noncompletion of deliverables. The contract
itself referred to contra ct “deliverables”. We have enumerated the deliverables not
completed that contributed to the system not being implemented.

(15) USAID/Iraq stated that t he completion-type contracts were much more difficult to
     use in dev elopment contexts like Iraq—with the Iraq Financial Management
     Information System proj ect being a perfect exa mple. The mission further stated
     that holding the contra ctor accountable for such “nonco mpletion of contract
     deliverables” would be inappropriat e, and using a contract type that would requi re
     this result would be ill-advised.

We disagree. The implementation suffered primarily because training was inadeq uate
and user needs were not incorporat ed as illustrated by a gap analysis that was needed
in order to reconfigure the purchasing module to me           et Iraqi user requirements.
USAID/Iraq's decision t o use a co st reimbursement contract for this project had put
additional risk on the United States Government and as such required substantially more
oversight of the contract to ensure that sufficient progress was being achieved and costs
were reasonable. Howe ver, there was little to n o monitoring by go vernment officials on
contract performance as oversig ht was pr ovided by another USAID contractor.
Furthermore, there was little or     no monitoring by government officials to pr      ovide
assurances that key contract deliverables were being        met. Therefore, the contract
ended without the completion of some key contract deliverables. The decision to award
a cost reimbursable type contract wit hout sufficient oversight in place was risky at best,
and in this case has yet to provide the financial and management information system
envisioned.


                                                                                        27
(16) USAID/Iraq stated th at Internet connectivity was a Ministry of Finance
     responsibility.

We agree with the mission’s com ment. However, the primary issue is no t who was
responsible for Internet connectivity, but    why USAID/Iraq tried to impleme nt a
Web-based information system in a country with poor internet connectivity. According to
USAID, this decision was made by the Coalition Provisional Authority. Nevertheless, the
Coalition Provisional Authority ended in 2004 allowing USAID/Iraq s    ufficient time to
re-evaluate the project’s approach and implementation strategy.

(17) USAID/Iraq stated that the offline date entry tool was deliver ed at the beginning of
     August of 2009, after it was re- configured to accommodate the Ministry of
     Finance’s new business requirement.

We disagree. According to information provided by mission officials, in April 2009 , the
contractor notified Iraq’s Ministry of Finance that the offline data entry tool was available.
However, in June 2009, the contractor reported to the mission that the offline data entry
tool needed to be reco nfigured because it was completed based on t he 2008 ch art of
accounts and needed to be reconfigured to the new 2009 chart of accounts. In Au gust
2009, the contractor no tified the mission that they had tested the reconfigured of fline
data entry tool using dummy data since they did not have actual dat a and that it was
ready to send to the Ministry of Finan ce. During a meeting with nine Ministry of Finan ce
officials to discuss the Iraq Financial Management Information System, the auditors were
informed that the offlin e data entry tool was sent to them by email along with nomina l
instructions, but it did not meet their needs nor function properly. Mission officials stated
that they did not know if the offline data entry tool functioned or not because of obstacles
placed by Iraq Ministry of Finance officials.

(18) USAID/Iraq requested the names o f the specific vendors t hat were no t named in
     the draft audit report regarding software licensing issues.

Officials from the Iraq’s Ministry of Finance stated that they were u     nable to co ntact
vendors such as FirePass because the software was still registered to BearingPoint. On
September 28, 2009, we discu ssed this issue with USAID/Iraq program officials, and
they acknowledged that they were aware of th e situation and were working to address
the problem. As of March 2010, the re remained issues with ownership of the Ministry of
Finance’s internet domain name because it was owned by a BearingPoint employee who
had let the registration lapse. Upon discovery of this fact, the contractor and USAID/Iraq
worked to solve the issues.

(19) According to USAID/Iraq, the USAID Mission had provided the au  dit team full
     access to all documents and correspondence pertaining to the Ira q Financial
     Management Information System implementation.

We disagree. Althou gh USAID/Iraq provided the audit team access to pro               ject
documents, these documents were not from any of the five contracting officer’s technical
representatives (COTRs) assigned to manage the contractor’s implementation of Iraq
Financial Management Information system over the life of t he project. The five COTRs
were responsible for providing technical dire ction to th e contractor, including the
monitoring of contract deliverables. The COT Rs are required to docume nt all significant


                                                                                           28
actions including any technical directions given to the co ntractor in t he work file or a
separate action file. The file should contain copies of the contract, all modification s, the
COTR designation letter from the contracting officer, and all correspondence between
the COTR and the contractor or the contractin g officer. The file must be maintained
intact and updated by each successor COTR un til the contract ends. However, over the
six year period of contract implementation, none of the five COTRs left files documenting
their oversight essent ial to the implementation of the I raqi Financial Management
Information System. As such, the only project implementation documentation available
were those records p rovided by the activit y manager. However, none of                   the
documentation essential to proje ct oversight such as th e COTR’s inspection and
receiving/acceptance of deliverables records and copies of other perf ormance records
as specified by the contract were contained in the activity manager’s files.

(20) According to USAI D/Iraq, the implementer prepared a comprehensive,
     well-communicated plan to transfer and test the IFMIS equipment.

We disagree. The documentation provided by the mission supported our conclusion that
no system-response te sting was performed to determine whether the system co uld
support users from the 250 spending units co nnected to the system. The Ministry o f
Finance also disagrees with the claim that this testing was conducted.

(21) According to USAID/Iraq, the programs implemented on behalf of USAID had been
     audited by DCAA, OIG, and other o versight agencies for many years, all over the
     world. No deficiencies or problems in business practices or accounting systems
     were reported by oversight agencies.

We disagree. Soon aft er the first contract with BearingPoint was signed, USAI D/Iraq
was alerted about deficiencie s in the contractor’s business practices and accoun ting
systems.

   On September 2, 2004, the Office of Inspector General/Iraq transmitted a Defense
    Contract Audit Agency (DCAA) audit report to USAID for action. Our transmitt al
    memorandum included $6 million in questioned costs out of $35 million audited. The
    accompanying DCAA audit report noted that (1) although the accounting system was
    considered adequate as of May 19 , 2003, the contractor’s new accounting system
    had not yet been evaluated, (2) th e contractor’s billing system and related intern al
    control policies and pro cedures were inadequate, (3) the contractor’s t imekeeping
    system had deficiencies, (4) corrective action was needed to improve the reliability of
    the labor accounting system, (5) the contractor ’s budget a nd planning system wa s
    considered inadequate; (6) the contractor’s cost accounting system disclosure
    statement was inadequa te, and (7) the contract or was unable to provide adequate
    records.

   On June 14, 2005, we transmitted a DCAA audit report for action. Our transmittal
    included $13 million in questioned costs out of $38 million. The accompanying
    DCAA report noted that (1) the contractor’s billing system and related internal control
    policies and procedures were inade quate, (2) the contract or’s budget and plannin g
    system was inadequate; (3) the co ntractor’s estimating system were inadequate in
    part (4) the contracto r’s cost a ccounting system disclosure sta tement was
    inadequate, and (5) t he contractor was in non-compliance with several cost



                                                                                          29
    accounting standards. As a result, DCAA was not able to express an opinion on t he
    contractor’s financial capability.

   On July 6, 2006, we tr ansmitted a DCAA audit report for action. O ur transmittal
    included $2 million in questioned co sts out of $37 million. T he accompanying DCAA
    report noted that (1) t he contractor’s control environment and overall accounting
    controls were inadequate in part, (2 ) the contra ctor’s budget and plan ning system
    was inadequate, and ( 3) the contr actor was in non-compliance with several cost
    accounting standards. As a result, DCAA disclaimed its opinion on the contractor’s
    financial capability.

   On April 3, 2007, we tr ansmitted a DCAA audit report for action. Our transmittal
    included $50,000 in questioned co sts out of $57 million. The accompanying DCAA
    report noted that (1) t he contractor’s control environment and overall accounting
    controls were inadequate in part, (2 ) the contra ctor’s budget and plan ning system
    was inadequate, and ( 3) the cont ractor was in non-co mpliance with one co st
    accounting standard.

   On April 15, 2008, we t ransmitted a DCAA au dit report for action. Our transmittal
    included $36,000 in questioned co sts out of $42 million. The accompanying DCAA
    report noted that (1) t he contractor’s control environment and overall accounting
    controls were inadequate in part, (2 ) the contractor’s billing system was inadequat e
    in part due to (a) lack of policies and procedures on assessing the adequacy for
    processing timely offsets, (b) lack of policies and procedures for the exclusion of
    non-billable items from billings, (c) failure to routinely perform recorded cost to billed
    cost reconciliations, (d) failure to promptly adju st billings to reflect appropriate final
    indirect rates, (e) failur e to prepare cumulative allowable cost sched ules for fin al
    voucher preparation, and (f) failure to promptl y submit fin al vouchers for contract
    closeout.

   On July 20, 2009, we t ransmitted a DCAA au dit report for action. Our transmittal
    included $70 million in questioned costs out of $70 million. In addition, we also
    included another $4 million by questioning the payment of the fixed fee for the period
    under audit. The accompanying DCAA report noted that (1) the contractor did no t
    have procedures to ensure that adequate accou nting reconciliation existed between
    the general ledger, su bsidiary ledgers, accounting schedules, and supporting
    documents, (2) the contractor’s a ccounting system did not ensure that current,
    complete, and accurate accounting records, a nd supporting documentation, were
    maintained to support the allowability, allocability, and re asonableness of costs
    charged to Government contracts, (3) the contractor’s          purchasing system were
    considered inadequate, (4) the co ntractor does not have adequate policies and
    procedures for all pro cesses of the purchasing system, (4) the sub contracts are
    acquired by operating personnel wit hin engagement teams, and not by procurement
    professionals, (5) the contractor is u nable to support that it purchased se rvices from
    reliable sources, at fa ir and reasonable prices, (6) the con tractor does not monitor
    the efficiency of its procurement department, (7) the contractor does n ot adequately
    document cost or price analysis, t he determination that a n exception to cost or
    pricing data exists, or the negotiation proc ess, (8) the contractor does not have a
    system of seeking and taking purchase discounts, (9) the contractor does not provide
    adequate oversight of subcontractor award a nd administration, (10) the contractor



                                                                                            30
   does not verify the adequacy of the subcontr actor’s accounting system, (11) the
   contractor does not ensure that subcontract incurred costs are audited or monitor the
   financial performance of subcontractors, (12) the contractor does not have a
   subcontract acquisition system that ensures that flow-down clauses are included as
   applicable.

   Other issues were also identified. Finally, DCAA stated that “To achieve the planned
   audit objectives for the audit of dire ct costs on USAID Contract No. 267-C-00-04-
   00405-00, we relied extensively o n information processe d through the contract or’s
   computerized accounting and billing systems . The co ntractor was unable to
   reconcile the costs sub mitted on invoices to the general le dger. The contractor' s
   system allows billed amounts from any period costs are incurred. Costs billed during
   the period of this review (October 2007 through May 2009) included costs incurred
   from prior periods. The general ledger does not allow for the identifica tion of costs
   by contract…. Ultimate ly, costs co ntained in t he general ledger will not reconcile
   back to supporting documentation due to the manual adjustments made…”

(22) According to USAID/Iraq, the awarding of the contract involved a thorough review
     by the USAID Contracts Review Board and th e decision on the type of contra ct
     was fully do cumented and justified and determined to be r elevant to t he type of
     work and the environment in which the work would be taking place.

We did not review USAID/Iraq’s procurement files to verif y if their decision to award
BearingPoint a cost re imbursable (level of effort) term contract to implement t      heir
Economic Growth I and II progr ams in Iraq was justif iable. However, per Federal
Acquisition Regulation (FAR) 16.30 6, this contr act type pro vides the contractor only a
minimum incentive to control cost s. Therefore, it was imperative for USAID/Iraq to have
had sufficient monitoring of contra ct costs and deliverables due to the type of cont ract
awarded to BearingPoint. In our audit report of USAI         D/Iraq’s Economic Gro wth II
Program, issued June 3 2009, (wh ich included the imple mentation of the Syste m), we
reported that USAID/Ira q had not established a systematic mechanism to monitor the
myriad tasks and thus could not track whether the tasks had been performed, were on
schedule, or were behind schedule. Without such knowledge, the mission was unable to
manage the contract effectively or measure improvements in the areas in which the EGII
Program was meant to have the greatest effect . Furthermore, as discussed under item
No. 19 abo ve, USAID/Iraq did not have files from an y of t he five cont racting officer’s
technical representatives to suppo rt the required monitoring of the         key contract
deliveries essential to the implementation of the Iraqi Financial Management Information
System. Finally, while the original contract was awarded prior to the DCAA reports (that
essentially notified USAID/Iraq of the various deficiencies in the cont ractor’s systems),
follow-on awards or extensions co uld have been avoided if USAID/Ira q had adhered to
FAR 16.301.3 (a)(1)(2). Accord ing to this se ction of th e FAR, a cost-reimbursement
contract may be used only when— (1) the cont ractor’s accounting syst em is adequate
for determining cost s applicable to the contr act; and (2 ) appropriate government
surveillance during performance will provide reasonable assurance that efficient
methods and effective cost controls are used. T herefore, awarding a cost reimbursable
level of effort term contract with    little evidence of monitoring by USAID/Iraq     was
inappropriate for Iraq.

(23) According to USAID/Iraq, when the contact was signed, there was ample reason to
     believe that the contractor’s accou nting system was ade quate for appropriately


                                                                                       31
     capturing and reporting the use of federal funds, and that continued to be the case
     for all years of implementation.

We did not review the procurement files to determine whether or not USAI        D had
considered the adequacies of the contractor’s systems (including the contractor’s
accounting system) as part of their selection process. However, in July 2006, (almost
one year before the pro gram was suspended in May 2007, and three years before the
end of the contract in June 20 09,) DCAA had reported the ina dequacies of the
contractor’s accounting system. (Please see our response above under item no.21.)

(24) According to USAID/Iraq, DCAA is the appropriate government agency to assess
     the adequacy of such systems and (and t he agency that deter mined the
     contractor’s NICRA), had never determined (even in the last audit performed) that
     the contractor’s accounting system was inadequate.

We disagree for the reasons cited above under item no. 2 1. In addition, USAID/Iraq is
incorrect when it stated that DCAA was the appropriate agency that determined the
contractor’s NICRA. The only office within USAI D with the authority to establish indirect
cost rates for the U.S. organization s for which USAID has cognizance is the Overhead
and Special Costs and Contract Closeout Branch within th e Office of Acquisition and
Assistance in Washington, DC.

(25) According to USAID/Iraq, the USAID mission had continuously mo nitored and
     surveilled the appropriate use of obligated funds under the entire contract including
     the Iraq Financial Management Information System.

We disagree. Our last performance audit report stated that USAID         officials did not
establish a systematic mechanism to monitor the myriad tasks and th us could not track
whether the tasks had been performed and were on schedu le. Without such knowledge
the mission was unable to manag e the co ntract effectively or measure improvements.
We concluded that after 4 years and $192 million in incurred costs, fewer than half of the
originally planned 398 tasks had been performed. In addi tion, implementation of t he
Iraqi Financial Management Information System was far behind schedule.

(26) According to USAID/Iraq, the USAID mission, through the contract          ing officer
     technical representative and the contracting officer, had req uired and tr acked the
     monthly programmatic and financial reports related to the program, and ha           d
     ensured that the cont ractor delivered its be st effort in meeting the contract’s
     objectives.

We disagree. During o ur prior audit of the economic governance program, the aud itors
tried on se veral occasions to obt ain the act ual and associated costs for the Iraq
Financial Management Information System and according t o both the contractor a nd
USAID/Iraq, it was not possible because the vouchers were billed according to functional
areas such overall costs for direct labor, indirect rates and subcontractors’ co sts. As
such, contract costs were neither billed nor tracked according to project activities such
as the development of Iraq Financial Managem ent Information System. There fore,
USAID could not have monitored and provided adequate surveillance of the funds for the
implementation of the system. As a result, during the implementation of Iraq’s Financial
Management Information System, USAID was not aware of the co sts associated



                                                                                       32
specifically with IFMIS, and it could not provide assurances that efficie nt methods and
effective cost controls were used.

Based on these facts, USAID/Iraq did not adher e to either condition of FAR 16.301.3(a)
which states that a co st reimbursement contract may be used only when two condit ions
are met: first, the con tractor’s accounting system is ade quate for d etermining costs
applicable to the contr act, and second, appropriate government surveillance during
performance will provide reasonable assurance that efficient methods and effective cost
controls are used.

(27) According to USAID/Iraq, the audit report had misinterpreted the issue of the
     system not accepting unique invoices.

We disagree. Accordin g to Ministr y of Planning and Board of Supreme Audit officials,
the Iraqi Financial Management Information System would not allow them to record their
invoice transactions wit h the associated uniq ue paper invoice numb ers. Therefore,
ministry officials found it impossible to track their transactions. As such, it       was
impossible for the users to determine which invoice transaction       s belonged to their
spending units at the end of the rep orting period. Had a b est fit system analysis been
done before Iraq Financial Management Informati on System was implemented, it would
have identified this as one of the issues of implementing a highly automated system in a
country that is still paper intensive.

(28) According to USAID/Iraq, the performance budget module will al low these types of
     transactions (bank reconciliat ions, bank accounts, begi nning balances, and
     budget)

We agree. Mission p ersonnel acknowledged that the Iraq Financial Management
Information System is not fully functional without the budget module.

(29) According to USAID/Iraq, the Iraq Financial Management Information System was
     fully capable of generating any expenditure report on multiple levels.

We disagree. For example, although Crystal Reports software was added to the system,
it was not capable of generating 18 reports specified by the IMF.            The con tractor
provided specifications for these reports to the software ven dor who stated in June 2009
at the end o f the contract that it wo uld cost $102,250 which the contractor advised was
to be paid by the Government of Iraq. In addit ion, a World Bank official stated to us that
the Iraq Financial Management Information System is not working because of the lack of
ability to get reports. Part of the World Bank’s work is related to Iraq budget preparation,
execution, and procurement.

(30) According to USAID/Iraq, the reports can be d ownloaded in Excel spreadsheet
     format.

We disagree. During our field work in September 2009, accountants from the Ministry of
Finance and Iraq’s Board of Supre me Audit stated that they were not able to do wnload
reports into Excel spreadsheets. In May 2010, we again followed up with the Ministry of
Finance and Iraq’s Board of Supreme Audit and they st ated that they were unable to
download reports into Excel spreadsheets. Furthermore, in June 2010, we also followed



                                                                                         33
up with the software vendor-FreeBalance, and they confir med that data/reports cannot
be downloaded directly into Excel from the core Financials module.

(31) According to USAID/Iraq, the Ministry of Finance budget directorate did not provide
     the 2008 b udget supplemental data to the contractor until May of 2009, and
     therefore no spending unit was a ble to easily complete an entire month’s data
     entry, produce a trial balance and reconcile to the legacy system.

We agree. As stated in our draft au dit report, Iraqi system users enter ed data into both
IFMIS and Iraq’s legacy system in order to test the accuracy of the data. For these fiscal
years the data entered into the system succe ssfully matched data entered parallel in the
Government of Iraq’s le gacy system. Howe ver problems arose in the 2008 data entry
and the new system’s data did n ot match the legacy system. One              cause of t his
discrepancy was the lack of cooper ation of the spending un its in fully entering the data.
While the system is capable of       producing overall financial statem ents, it is not a
functional tool at the sp ending unit level for performing day-to-day accounting work of
these entries. System users rep orted that t he new system functioned only as a
data-entry tool and tha t they used the legac y system as the system of record for
conducting their routine activities.

(32) According to USAID/Iraq, the core I raq Financial Management Information System
     was not designed to accommodate all the requirements of the Ministry of Finance
     budget directorate. Th is functionality is contained in the performance budgeting
     module.

We agree. However, our draft re port also n oted that t he budget and purchasing
modules have not been configure d to meet I raqi users’ needs, and no training was
provided. We also not ed that the budget module would resolve many of the difficulties
encountered in executing the Government o    f Iraq’s budget, but it has not been
implemented.

(33) According to USAID/Iraq, by utilizi ng unused digit (zero) from the previous
     twelve-digit chart of accounts, and by adding two ext ra digits, t he current
     fourteen-digit chart of accounts offers 999 new additional possibilities of accounting
     classification.

We disagree. The issue is not th e number of unused digits. The issue is that the
system administrator cannot add accounting classifications to the chart of accounts
because accounting classifications must be added by the vendor, creating delays. One
system user stated that if they wanted to introduce a new account cla ssification to the
chart of accounts it would take months before they could enter th e transaction thus
causing work to be delayed. According to the user, this occurred beca use the request
first had to go to the Ministry of Finance and then to the software vendor to establish the
new classification. For example, the accounting department wanted to add an allowance
classification for an en gineer. Ho wever, since this would be a new classificatio n, the
user had to wait several months before being able to enter the transaction.

In addition, a high ranking official from the Ministry of Finance stated that the Ministry of
Finance’s work is continually developing and, as such, there is a need to make changes
quickly. However, according to this official, it takes three weeks for the software vendor



                                                                                          34
to effect a needed chan ge in the system. The official furth er stated that, if the system
cannot provide the flexibility that they need, then perhaps they do not need the system.

(34) According to USAID/Iraq, the draft audit report stated that if internet service was
     interrupted while a user was entering a transaction, the parts of the transaction that
     were entered before ser vice was interrupted were not save d. The system did not
     have an auto save fun ction for power interruption or lo st internet connectivity.
     However, there is a “Temp Sa ve” feature, and they had recommended to the
     Ministry of Finance to adopt and instruct the ir staffs to u se that feat ure to help
     mitigate losses. According to USAID/Iraq, t      he Ministry of Finance staff had
     received the basic user training, which has included the feature’s usage.

We agree except for t he user training. We have no su pport from USAID/Iraq that
training incorporating this work-around was provided.

(35) According to USAI D/Iraq, the draft audit report noted that, if a transaction was
     entered that exceeded t he allocated budget, the system would not inform the user
     that it had not accepted the transaction until the transaction process had ended. In
     response to this draft report language, USAID/Iraq stated that it had recommended
     to the Ministry of Finan ce that they to use the “Temp Sa ve” functionality of the
     system and that BearingPoint had provided training for this functionality.

We agree except for t he user training. We have no su pport from USAID/Iraq that
training incorporating this work-around was provided.

(36) According to USAID/Iraq, since the Iraq Financial Management information System
     is a web-based syste m, its slow response t ime is an issue due t o insufficient
     bandwidth and is a major problem in Iraq’s telecommunication business.

We agree. However, USAID/Iraq’s commentary on their decision to u se a web ba sed
system in Iraq reinforces our draft report findings which reported that practical problems
in the implementation of the Iraq Financial Management information Syste m arose
because the contractor did not use IT best practices. One such IT best practice w ould
have included the selection of a sys tem based on finding a best fit. Obtaining a best fit
system involves surveying the marketplace, evaluating different options, and identifying
the solution that best fits system a nd user requirements. The contractor selected the
software vendor as the Iraq Financial Management Information System software without
conducting an analysis to determi ne what system would best fit the Iraq accounting
system. Had the contractor utilize d IT best practices from the beginni ng, they wo uld
have understood the issues surro unding sufficient band width and the challeng es of
implementing a web based information system in Iraq.

(37) According to USAID/Iraq, their plans to engage in six more months of work on the
     Iraq Financial Manage ment information System should b e removed as this is
     out-of-date.

We disagree. The mission’s original plan to fund $1.5 million of additional work was one
of the reasons we performed this audit. We have adjusted this section of the audit report
to bring it more up to date.




                                                                                        35
                                                                               APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General/Iraq conducte d this perfo rmance audit in accord ance
with generally accepted government auditing st andards. T hose standards require t hat
we plan an d perform t he audit to obtain sufficient, appropriate evidence to provid e a
reasonable basis for our findings and conclusions in accordance with our audit objective.
We believe that the evidence obtained provides such a basis.

The Iraq Financial Management Information System was developed under two contr acts
between USAID and BearingPoint, Inc., that ran from July 2 003 through July 2009. As
of November 1, 2009, USAID had spent about $32.6 million to develop the syste m. In
addition, the U.S. Department of State had spent $4.8 million on modules that were later
incorporated into the system, for a total cost of $37.4 million. The system was designed
to help the Govern ment of Iraq formulate, execute, and monitor central government
budgets.

In planning and performing the a udit, we ga ined an understanding of USAID/I raq’s
existing management controls. W e evaluated contractor performance in meeting th e
contractual obligations and adherence to USAID’s acquisition reg       ulations, USAID
guidance to contracting officer’s representatives, and the Federal Acquisit         ion
Regulations. In addition, we reviewed the      contractor’s adherence to information
technology best practices, under Control Objectives for Information and Related
Technology (COBIT), a s they relate to implementing the Iraq Financial Management
Information System und er the Economic Governance I and II programs. We also
reviewed documentation related to financial management information systems, including
guidance from the Joint Financial Managem        ent Improvement Program, USAID,
International Monetary Fund, and the Federal Systems Integration Office.

Our audit was conducte d in Baghdad, Iraq, primarily in the I nternational Zone. We also
made several trips to   Baghdad proper to meet with Iraq Financial Manage ment
Information System users.      To cross-check information obtained, we interviewed
representatives from USAID/Iraq, the Ministry of Finan ce, Ministry o f Planning and
Development Coordination, Iraq Board of Supreme           Audit, the World Bank, the
International Monetary Fund, the U.K. Department for International Development, the
U.S. Department of Treasury attaché, and the software vendor FreeBalance.

The Economic Governance II contract ended prior to the start of the audit, and only one
USAID representative in Iraq, an activity man ager, had a working knowledge of the
project. The contractor, BearingPoint, had left Iraq at t he time of our audit. USAID
reported that the files of previous contract ing officer’s technical represen tatives had not
been made available to them. The files on hand include d those accumulated by th e
activity manager and th ose provided to this a ctivity manager by the contractor. In
addition, the auditors were able to obtain some documentation related to the project from
the prior audit’s working papers.




                                                                                          36
Audit fieldwork was conducted at USAID/Iraq headquarters in Baghdad, Iraq, and at
various locations within and outside of the Int ernational Zone in Bagh dad, Iraq. The
audit field work was conducted from August 19, 2009, through December 10, 2009.

Methodology
To answer the audit objective, we reviewed various criteria related to the subject matter
and relied to varying d egrees on documentation and information obtained in inter views
and provided by USAID/Iraq.          We conducted interviews and exchanged email
correspondence with an array of sources familiar with the Iraq Financial Manage ment
Information System’s activities. Documentation reviewed i ncluded (1) the Economic
Governance I and II contracts and modifications, (2) various reports and correspondence
from the c ontractor, (3) the January 2008        memorandum of und erstanding, (4)
International Business & Technical Consultant s, Inc., rep ort, “Situation Assessment—
Iraq Financial Management Information System,” January 20, 2009, ( 5) various USAID
correspondence, (6) International Monetary Fund reports related to the Iraq Financial
Management Information System, a nd (7) prio r reports issu ed by USAI D/OIG/Iraq, the
Defense Contract Au dit Agency, and the          Special I nspector General for Iraq
Reconstruction. In regard to the use of the t   erm “implemented,” the purpose of the
implementation phase is to migrate or implement the system into produ ction. As sta ted
in our report, the Iraq Financial Management Information System has not been accepted
by the Mini stry of Finance, and it is not being used as th e system of record for the
Government of Iraq.

To determine the relevance and reliability of evi dential matter, we cond ucted interviews
with appropriate personnel from USAID/Iraq in Baghdad, Iraq, and with representatives
from the World Bank, the U.K. Departme          nt for International Development,       the
International Monetary Fund, the U.S. Department of Treasury attaché, and the soft ware
vendor FreeBalance. In addition, we interviewed representatives from the Iraqi Board of
Supreme Audit, Iraqi Ministry of Planning and Developme nt Coordination, and the Iraqi
Ministry of Finance. W e also revie wed interviews from our prior audit (Fall 2008) with
the contractor BearingPoint and USAID/Iraq, related to the Iraq Financial Management
Information System.

We also obtained and reviewed the State Department contracts and inv oices related to
the budget and purchasing modules.

In addition, we tested the contr act’s planned activities as stated particularly in
modification no. 21 to t he Economic Growth II contract, wh ich included 9 deliverables
and 59 tasks related to the completion and the handover of the Iraq Fina              ncial
Management Information Syste m to the Go vernment of Iraq. W e reviewed the
contractor’s status on the completion of modification no. 21 and obtained feedback from
Iraqi counterparts regarding completion and satisfaction with the contract deliverables.




                                                                                        37
                                                               APPENDIX II



MANAGEMENT COMMENTS


Date:       April 4, 2010

To:         Lloyd Miller
            Director, OIG/I

From:       Christopher D. Crowley /s/
            Mission Director

Subject:    Management Comments, Audit of USAID/Iraq’s
            Implementation of the Iraq Financial Management Information
            System

Reference: Audit Report No. E-267-10-00x-P


Thank you for affording the USAID/Iraq Mission an opportunity to respond
to the draft audit report on USAID/Iraq’s implementation of the Iraq
Financial Management Information System (IFMIS) project. Below for
your consideration are the Mission’s comments will be on the draft audit
report and response to the recommendation included in the final draft audit
report.

I.      Background

The Office of Inspector General (OIG) draft audit report on the IFMIS
project was provided to the Mission on March 4, 2010. The audit sought to
determine whether the Iraq Financial Management Information System has
been implemented, and achieved its main goals of helping the Government
of Iraq formulate, execute, and monitor central government budgets. The
Mission appreciates the OIG team’s work and concurs with the audit
recommendation.




                                                                        38
USAID/Iraq is providing management comments and additional information
below for a better understanding of IFMIS accomplishments, to supplement
the audit findings, and to present a fair and balanced audit report. Additional
facts will also help identify appropriate lessons learned for developing future
activities and strategies.

II.   Management Comments

Comments on specific programmatic and technical findings in the draft audit
report are included below. The Mission would also like to make several
general observations about the draft audit report.

      A.     General Observations

First, the draft audit report is lacking critical information concerning
Government of Iraq (GOI) support for IFMIS. In numerous places the draft
audit report states that the GOI did not accept or support IFMIS, and
suggests that USAID was careless in designing and implementing a project
without GOI support. High level support for IFMIS from the Ministry of
Finance (MOF) was obtained. Changes in MOF personnel sometimes
resulted in weakened support, and some levels of staff in the MOF were less
supportive than other (higher) levels, but USAID of course realized the
importance of obtaining MOF “buy-in” for IFMIS and obtained such support
to the degree that was possible.

Second, the draft audit report is lacking information concerning the GOI’s
own responsibilities for implementing IFMIS and making IFMIS an
effective system. IFMIS of course is a GOI system (hence the importance of
GOI “buy-in”), and as such, numerous problems in effective implementation
of IFMIS are directly attributable to MOF decisions or actions. The draft
audit report ignores GOI responsibility for IFMIS, attributing all problems to
poor design or implementation on the part of USAID and its implementing
partners. The draft audit report also seems to assume that USAID and its
implementing partners “control” MOF, and have the power and authority to
compel the MOF to take actions that are necessary for effective
implementation of IFMIS. USAID and its implementing partners cannot
“implement” IFMIS for the GOI.

Third, the draft audit report is lacking information concerning a variety of
circumstances and factors, some unique to Iraq, that were well beyond the

                                                                            39
control of USAID or its implementing partners and had a significant impact
on effective implementation of IFMIS. The Mission was seriously
considering suspension of the activities, after numerous meetings with MOF
seeking to resolve the lack of support and commitment to IFMIS during
2007.          In addition, the deteriorating security situation during
implementation of the project, which resulted in the kidnapping of Bearing
Point staff in 2007 (with all but one of those kidnapped being killed, and the
last person released only a few months ago), clearly disrupted project
implementation, yet this is barely mentioned in the audit report, and nowhere
mentioned as a significant factor that might account for project difficulties.
Although the kidnapping was the event that resulted in the suspension of
activities but was not the major reason for the suspension; the major reason
was the lack of support from MOF.

Similarly, the draft audit report is lacking information concerning resistance
to IFMIS on the part of some lower level MOF officials that significantly
impeded implementation of IFMIS. This was a major factor accounting for
difficulties with IFMIS, and yet this is essentially ignored in the draft audit
report. If a full and accurate understanding is sought regarding why IFMIS
experienced difficulties, as we believe it should be through this audit, clearly
these other factors need to be acknowledged, and not just in passing. The
audit report as drafted focuses almost exclusively on the failings of USAID
and its implementing partners, when an accurate account of this project
should recognize the role that these other factors played. Without such a
balanced account, an accurate understanding of the lessons to be learned
from IFMIS, and the reasons for IFMIS’ failures, will be impossible, and the
audit will not have served its purpose in our opinion.

Fourth, the draft audit report does not reflect adequately USAID’s
perspective on the difficulties faced in the IFMIS project. In one respect this
is not surprising, given that the interviews of USAID/Iraq staff by the
auditors were very limited and were mainly focused on requesting copies of
documents. Clearly, the audit findings need not represent USAID’s
perspective, and the auditors can disagree with USAID’s view of what went
wrong with IFMIS and why. But for the audit findings to be made and the
audit report issued, even in draft, prior to hearing or considering USAID’s
views on what went wrong with IFMIS and why, inevitably results in
findings that are incomplete and not fully informed, as is the case with the
draft audit report. An accurate understanding of the IFMIS project and its



                                                                             40
history is not possible without some consideration of the experiences that
USAID staff had in implementing this project.


      B.     Specific Programmatic Comments

Below are comments on several specific findings in the draft audit report
that are of a broader, more programmatic nature. The findings themselves
are quoted in italics. Comments on more technical findings are included in
section C below.


Page 4, Audit Findings: The information system has not been accepted by
the Ministry of Finance, and it is not being used as the system of record for
the Government of Iraq. (also pp. 5, 10 and 13, and Summary of Results)

Management Comments: In February of 2007 the former Minister of
Finance had signed an Order making IFMIS the official account of record
effective July 1, 2007, but after the kidnapping of BearingPoint staff in May
2007 the GOI withdrew support for IFMIS. Therefore, USAID suspended
the program at that time.

In November 2007, USAID met with the MOF to formally discuss the
prerequisites for restarting the program including the requirement for an
official Memorandum of Understanding (MOU). In January 2008, the
Minister of Finance and USAID signed the MOU in which the MOF
formally expressed its interest in receiving IFMIS assistance. In the MOU
the MOF also expressly agreed to provide on-going support to the IFMIS
effort and committed itself to sustaining projects funded by USAID. The
MOF agreed to request that the Council of Ministers issue an order to make
IFMIS the official system of the GOI, after reconciling functionality with the
legacy system, in support of an Order previously issued by the Minister of
Finance. The MOF reaffirmed its commitment to work with the USG to
immediately activate the Performance Budgeting and Procurement Modules
of IFMIS. The MOF also agreed to fully execute the MOF budget allocated
to complete the implementation of IFMIS.

Subsequently, the current Minister of Finance issued a formal Ministerial
Order on January 13, 2009 to all Ministries and Independent Agencies
requiring that IFMIS become the official system of record for the GOI as of

                                                                           41
June 1, 2009. The Order stated that the GOI was implementing IFMIS for
use by all budget spending agencies and noted that a number of agencies had
used the system up through 2007 and were familiar with its operation. The
Order stated that IFMIS improves the management of the budget and
accounting processes and provides faster and more effective financial reports
for GOI decision-makers, compared to the existing trial balance system. The
Order also contained a note to the Secretariat for the Cabinet requesting that
he direct all Ministries and Independent Agencies to intensify their
cooperation so as to achieve successful implementation of the system.

This Order represents the clearest possible support for the system on behalf
of the GOI. To make the point unambiguous, the Order explicitly tied each
agency’s monthly cash allocation to compliance with the Order, stating that
“any agency not supplying the IFMIS report will have their cash allocation
for the following month delayed until they comply with this Order.”

The MOF’s Advisor to the Minister has insisted in recent meetings with the
International Monetary Fund that despite issues concerning implementation
of IFMIS he was adamant that “we should not give up on it.”


Page 6, Handover of the Iraq Financial Management Information System:
Although the server equipment has been returned to the ministry,
BearingPoint reported that the handover of the system has not been
achieved.

Management Comments: IFMIS is a fully functional system that is ready
to receive data and process it. It is the GOI’s responsibility to input that
data, and run the system. This has not been done by the GOI.

Although there has been significant GOI support for IFMIS, GOI support at
some levels and at some times has impeded implementation, as in the refusal
to include the necessary budget data to allow the system to process real-time
budget transactions, generate required reports, and so on. The Minister of
Finance, the Deputy Minister, the MOF’s Advisor to the Minister, and most
of the Director Generals (DGs) support reform and change as represented by
IFMIS. The system was also fully supported by the former Deputy Minister,
and the Accounting DG, who was taking the lead on IFMIS
implementation. However, the Ministry went through leadership changes
with a new government. Also, the Accounting DG was assassinated, and

                                                                           42
then his successor was kidnapped. Two of the current DGs are much less
supportive of IFMIS.

Additionally, the MOF’s Advisor to the Minister, who was assigned by the
current Minister to advocate for the system’s implementation within the
MOF and to work with USAID, does not have any official authority or
responsibility in the Ministry, which is a programmatic flaw that gave DGs
who oppose the system the opportunity to disassociate themselves from the
implementation. As the advisor did not have the authority to mandate
compliance, the implementation of the IFMIS was impacted negatively and
allowed the opposition to block progress.

Considerable opposition to IFMIS continues in the conservative middle and
lower levels of the public service, particularly within MOF. Additionally,
there are widespread deficiencies in technical knowledge, awareness and
understanding of international developments in government institutional
reform, computerization and adoption of universal standards. We believe the
draft audit report, in evaluating user needs and critiques for system
handover, overestimates the state of technical capacity, particularly in
Information Technology, available within the MOF and underestimates the
need for fundamental change, as well as the impact these changes will have,
on the organization of the MOF. The draft audit report also ignores the key
point that senior GOI leaders, who have supported IFMIS, have a
responsibility to ensure that lower levels cooperate to make IFMIS a
success. This relates to the overarching point that it is the GOI’s
responsibility, not USAID’s, to “implement” IFMIS. Neglecting these
points in the draft audit report makes the report much less useful as a study
of the factors contributing to IFMIS successes and failures.

A major constraint on the project was and continues to be the lack of
technical capacity and support within the MOF, specifically within one key
Directorate. The DG of this key Directorate did not provide BearingPoint
complete and accurate data for either the 2008 supplemental or the 2009
budget, and continues to be unresponsive, despite the numerous
communications and requests for necessary data throughout the fiscal year.
This DG, although in a position critical for the functioning of IFMIS, is
essentially “computer illiterate,” and has frequently and openly expressed
concerns and mistrust in regards to the level of transparency that the system
might offer.



                                                                          43
As further explanation for why some MOF resistance to IFMIS persists,
certain staff of the MOF have expressed concern at times about the security
of GOI budget data if it is entered into a system that is accessed through the
internet. They are also concerned about utilizing a foreign vendor
(FreeBalance) for technical support since the foreign vendor will have
access to the systems and data of the GOI. Several high level officials also
believe that the system could be utilized as an intelligence collecting anti-
corruption tool by foreign authorities.

The kidnapping of the BearingPoint IT consultant and four other British
contractors, seized from the MOF in 2007, raised suspicions that some
people may have been attempting to destroy evidence of corruption.
According to open-source reports, some investigators believe the kidnapping
was not initially an act of terrorism in the usual sense of the word but, rather,
organized crime. The motive was to stop the consultant from installing a
computer system which would introduce more accountability and
transparency into the MOF's accounting systems.

The MOF’s lack of commitment to the system and the abduction of the
BearingPoint staff at the time compelled a decision on the status of the
program. After the kidnapping, the GOI withdrew support for further
implementation by shutting down the IFMIS data center. In July 2007, the
Ambassador also suspended the IFMIS program because of the kidnapping,
and because of poor cooperation from the GOI.

The program was not reinstated until 2008, after the MOF agreed to
undertake all the necessary “system management” steps to resume the
implementation. This included: 1) Re-license all software under the name
of the MOF by making any outstanding payments and by budgeting for
ongoing payments. 2) Restart the servers and reestablish the VSAT
connectivity to all the spending units. 3) Issue instructions to all the
spending units to resume inputting data on the appropriate date. 4) Relocate
the data center to Adnan Palace in the Green Zone. 5) Execute of orders
signed by the Minister to make IFMIS the official system of the GOI’s
budgetary, financial and accounting records. And 6) Reaffirm commitment
to work with the USG to activate the Performance Budgeting Module for
2009 budget preparation.

USAID has gone to great lengths to provide the MOF with a fully
functioning IFMIS under extremely difficult operational circumstances,

                                                                              44
including starting from ground zero in the chaos following the liberation of
Iraq. Considerable progress has been achieved on the functional and
technical aspects of IFMIS.

Finally, according to a World Bank study completed in 2003, the average
time taken to fully implement a Financial Management Information System
is seven years. Expecting IFMIS to be fully implemented in Iraq, of all
places, in less time than the worldwide average is simply unrealistic. This is
particularly the case when, despite support from senior GOI leaders and the
best efforts of the U.S. Government to highlight the advantages of IFMIS,
not all GOI stakeholders see IFMIS as a priority.


Page 7, Budget and Purchasing Modules: BearingPoint chose to configure
the budget module unilaterally, without the appropriate input from the
system users at the Ministry of Finance.

Management Comments: This is one of several findings in the draft audit
report critical of IFMIS for inadequately responding to MOF user needs.
Further context is necessary to understand the problem. The Core IFMIS
system is not designed to accommodate all the requirements of the MOF
Budget Directorate. This functionality is contained in the Performance
Budgeting Module. Unfortunately, the DG for the relevant Directorate
expressed no interest in this module and insists on attempting to implement
budget tasks in the Core IFMIS system. This decision constrains the loading
of new budgets into IFMIS. If the MOF were to utilize the Performance
Budgeting Module to create the budget for the GOI, budget data would be
uploaded efficiently and automatically into the Core IFMIS system.

The Budgeting Module is a comprehensive program for budget preparation,
budget execution, review and approval, forecasting and reporting. Although
the module was discussed during a meeting on April of 2009 that was
devoted primarily to the IFMIS core system, the relevant DG never agreed to
receive a demonstration of the module.

The Budgeting Module was added and integrated into the IFMIS by
BearingPoint “unilaterally” only in the sense that BearingPoint turned on
pre-loaded features. BearingPoint did not do customized programming or
configurations. Off-the-shelf Modules are typically pre-loaded with features
to accommodate all the major accounting and budgeting business needs and

                                                                           45
practices that are supported by international standards. The default setting is
usually scaled down for fast initial implementation and then gradually scaled
up through progressive activation of features to accommodate a country-
specific business process, and to ensure government participation and
eventual self-reliance. This required cooperation from MOF personnel
which was not forthcoming, primarily because MOF staff were not
interested in the Budgeting Module.


Page 7, Budget and Purchasing Modules: Similarly, BearingPoint chose to
configure the purchasing module unilaterally, relying on their best guess as
to the users’ needs at the Ministry of Planning.

Management Comments:             Again, further context is necessary to
understand what we believe the word “unilaterally” means (mentioned in the
previous finding as well). To say that BearingPoint chose to configure the
Module “unilaterally” implies, incorrectly, that BearingPoint installed both
Budget and Purchasing Modules without any prior consultation with the
USG; and suggests, again incorrectly, that BearingPoint configured the
modules without any consideration to, and the appropriate input from, the
system users. In order to assist with and to resolve many difficulties
encountered with the Iraqi Ministries in the budgeting and purchasing
processes, the GOI and the US Treasury agreed on implementing the
modules “bilaterally,” after identifying the GOI users’ needs. The
Department of State concurred the decision to add of the Purchasing Module
in order to assist the GOI in streamlining purchase order processing while
strengthening procurement policy compliance throughout GOI Ministries; as
well as, the budgeting module for the MOF. The decision was made after
realizing that any system, whether Budget or Purchasing, with similar
functionalities would require real-time financial information, supplied in real
time, across the Iraqi organizations—i.e. online inquiries to general ledger
information, which was one of the main features that the existing USAID’s
implemented IFMIS core system already offer. Therefore, the Department
of State requested the addition of the Budget and Purchasing Modules to the
core system, and USAID agreed on the implementation.

Additionally, BearingPoint did not rely on its “best guess” as to the users’
needs; it relied on the Iraqi law and the users’ needs that were provided by
the US Treasury. In addition, it relied on the best international accounting
and budgeting practices. The FreeBalance purchasing module (performance

                                                                            46
procurement) is a highly configurable end-to-end front-and-back office
purchasing, proposal management, procurement, contract management and
goods and services receipt software.

USAID defers policy making decisions to the US and Iraqi government
institutions responsible for selecting the FreeBalance Budget and Purchasing
Modules—FreeBalance is the software company.


Page 8, Crystal Reports: The inability to produce useful reports is one of
the system’s critical shortcomings… Crystal Reports training was not
provided to the Ministry of Finance staff. Furthermore, although Crystal
Reports was installed on the new information system, the Ministry of
Finance’s systems administrator was not authorized to access it.

Management Comments: The system is fully capable of generating useful
and needed reports, by utilizing the Crystal Reports software, which was
added and installed into the system. However, the MOF never designated a
team, or a person, to receive training on the software.

In order to design and generate useful and comprehensive reports, in
addition to the Information Technology expertise the MOF staff is required
to have the technical expertise and hands-on experience in the functional
Directorates’ (Accounting and Budget) business processes. This capacity
requirement has not been developed by the Ministry, and continues to be a
problem due to institutional issues within the MOF including the lack of
communication within the MOF (intra-directorate coordination and
cooperation). Addressing this constraint remains a low priority within the
MOF Directorates. USAID prepared a recommendation identifying roles
and responsibilities for each Directorate, and encouraged the Directorates to
come together to reach a common understanding of their changing roles and
responsibilities, but this has yet to occur and will continue to hamper the
IFMIS implementation until they resolve their differences.

With regard to the statement in the draft audit report that the MOF systems
administrator was not authorized to access Crystal Reports installed on the
new information system, this is an example of an action, authorizing an
MOF official to take a particular action, that is well beyond the control of
USAID or its implementing partner, and reflects an unwillingness of staff



                                                                          47
within the MOF to do what is necessary, on their part, to make IFMIS
effective.


Page 8, Training: According to Ministry of Finance IT staff, the training
consisted of presentations with handouts rather than hands-on training on
actual computers. The IT staff came away from the training without the
skills they needed to assume their responsibilities on the system.

Management Comments: Again, the draft audit report fails to provide the
necessary context. Significant training was undertaken and completed by
the implementer, especially training of the MOF IT staff. In spite of
bureaucratic hurdles and security challenges, formal classroom training
began on November of 2008 and concluded on March 2009. Subsequently,
three-week training was provided to nine MOF trainees in addition to
providing hands-on exercises with the IFMIS production servers.

We believe that the MOF DG of IT was dissatisfied with the training mainly
because the DG was under the impression that by the end of the training
junior staff could be trained to re-program and modify the system’s code
independently.     This was an unrealistic expectation.         Governments
worldwide acquire Financial Management Information System software
applications “off-the-shelf.”    A few governments have successfully
developed their own integrated systems with their in-house resources, but
the development and capital cost usually cannot be justified. In addition this
requires local availability and recruitment of certified, highly skilled IT
professionals, who have years of experience in designing, developing and
maintaining databases. Such resources are not available in Iraq.


Page 10, The Iraq Financial Management Information System is Not
Meeting System Users’ Needs (also Summary of Results and pp. 4, 5)

Management Comments: As discussed in detail in section C below,
USAID and our implementing partners have made significant efforts to
ensure that IFMIS meets the needs of users, and in many instances the
problems lie with a misunderstanding of IFMIS requirements, procedures
and capabilities on the part of MOF users.




                                                                           48
Page 13, Concept Design: In 2005, the International Monetary Fund (IMF)
noted that no concept design had been developed for the Iraq Financial
Management Information System and recommended that USAID develop a
concept design. As a result, FreeBalance provided a concept design.
However, the IMF judged the concept design to be inadequate and stated
that it did not provide sufficient information about specific Iraqi business
processes. USAID responded that the concept design was not required by
the contract. The IMF continued to recommend the development of an
appropriate concept design and asserted that not establishing a concept
design up front could result in costly and lasting consequences that [sic].
(also Summary of Results)

Management Comments: IFMIS was conceived in 2003 by the Coalition
Provisional Authority (CPA) as a needed solution to manage and oversee the
budget for the Government of Iraq, which was then under CPA control. As
noted in the previous SIGIR audit of IFMIS (referenced in the draft audit
report on page 9), CPA assessments found that the GOI financial structure
provided limited ability to monitor Iraqi ministerial budgets and
expenditures, leaving the ministries vulnerable to fraud, waste, and
misappropriation of funds. According to a senior advisor with the CPA, “the
Iraqi Ministry of Finance had been completely looted and burned…. There
were no computers…. Everything was paper intensive.”

As USAID possessed suitable capacities to contract for the work to
strengthen GOI financial systems, USAID was directed by the CPA to
undertake this effort.

It is unfortunate that the conceptual framework document for IFMIS was
neither supported nor endorsed in mid-2003 when this project commenced.
The decision to select the FreeBalance application was one taken in a
difficult and exigent environment. The unique circumstances in post-war
Iraq meant that the normal project management steps of conceptual design,
functional analysis, tendering process and implementation, were telescoped
into a brief selection process followed by a detailed implementation
program. Iraq’s antiquated manual accounting system and the IFMIS system
were intended to run in parallel until full adoption of the new system was
completed.

USAID was directed to automate the financial system in an environment
when a wide array of U.S. and international donors were simultaneously

                                                                         49
conducting reform efforts. This produced an ever shifting set of system
requirements which are inherently inimical to an automation process.


Page 5, Audit Findings and Contract Deliverables Were Not Completed:…
the project was funded under a cost-reimbursable contract that does not
hold the contractor accountable for noncompletion of contract
deliverables… Key contract deliverables for improving system capabilities
and ability of the Iraqis to use and care for the system were not
achieved...To implement the system, USAID/Iraq used a cost-reimbursable
contract that does not specifically require the contractor to complete
contract tasks aimed at achieving the intended program results. (also
Summary of Results and pp. 4, 6 and 9)

Management Comments: These statements in the draft audit report reflect
a misunderstanding of how a level-of-effort, cost-reimbursable contract
operates. Under such contracts the contractor is held accountable for
providing the services required under the contract, and making reasonable
efforts to deliver the results called for under the contract. Such contracts
hold the contractor accountable, but it is a different kind of accountability
than that under a completion-type, cost-reimbursement contract, where
payment depends on delivering the end products. To say that “contract
deliverables were not completed” implies, incorrectly, that “completion” is
an appropriate concept for the level-of-effort contract here and suggests,
again incorrectly, that completion of those “deliverables” was required under
the contract. “Deliverables” is in that sense a misnomer, at least when its
meaning is not properly understood in the level-of-effort context.

There is good reason that completion-type contracts are much more difficult
to use in development contexts like Iraq—with the IFMIS project being a
perfect example—given how achievement of developmentally meaningful
results can depend on a myriad of factors beyond the control of the
contractor. When a contractor’s employees are kidnapped and the host
government shuts down the project, and as a consequence the contractor is
unable to “complete the deliverables,” is USAID going to refuse to pay the
contractor? No. What if the contractor is unable to “complete the
deliverables” because of lack of cooperation from the Ministry in which the
contractor is installing a system? Holding the contractor accountable for
such “noncompletion of contract deliverables” would be inappropriate, and



                                                                          50
using a contract type that would require this result would be ill-advised. The
draft audit report seems to suggest otherwise, we believe ill-advisedly.


      C.    Specific Technical Comments

The following are comments on several specific technical or other findings
in the draft audit report. The findings themselves are quoted in italics.


Page 7, Budget and Purchasing Modules: BearingPoint subsequently
determined that the purchasing module configuration did not meet the
Ministry of Planning’s user requirements and recommended conducting a
gap analysis and reconfiguring the module to meet the Iraqi requirements.
The contract ended without completion of these tasks. USAID stated that, if
funding continued for the information system project, no further work on the
purchasing module would be included.

Management Comments: On March 23, 2009, a meeting with the Ministry
of Planning and Development Coordination (MoPDC) Directorate of
Accounting, BearingPoint and USAID occurred in the EG II camp.
BearingPoint demonstrated the Purchasing Module to the MoPDC DG and
her staff, who responded positively to the module and the functionality it
provides to their users. However, their response came two month before the
close out of the EG II program, which did not leave the BearingPoint staff
the required ample time to complete the needed tasks.

The implementation of the Purchasing Module has suffered due to
institutional impediments and lack of communication between the MOF and
other Ministries, particularly between the key Budget planning agencies of
the MOF and the MoPDC. In August of 2008, the MOF sent a letter to the
MoPDC requesting their assistance in implementing the Purchasing Module.
Official communication between the two Ministries concerning this matter
did not occur until the end of March of 2009. At that time BearingPoint
specialists demonstrated the Purchasing Module. The MoPDC staff
expressed their support and indicated that they would return to their Ministry
and prepare a recommendation to the Minister to adopt the module.
Subsequently, a further demonstration of the Purchasing Module was held
on May of 2009. The BearingPoint team was not able to provide any



                                                                           51
additional support for the Purchasing Module due to security difficulties and
EG II project closing.


Page 7, Offline Data-Entry tool: Currently, 80 spending units in Iraq do
not have Internet service.

Management Comments: Internet connectivity is an MOF responsibility.
In the January 2008 MOU the MOF agreed to reestablish internet
connectivity to all spending units. (The actual number of spending units in
Iraq that do not currently have Internet service is higher than 130 units.) In
September of 2008, the MOF started the procurement process to provide
eighty units with computers and VSAT connections. Throughout the
process, BearingPoint provided all the specifications for the equipment and
technical recommendations needed for the procurement.


Page 7, Offline Data-Entry tool: The Ministry of Finance systems
administrator downloaded the tool and found that it did not meet the Iraq
system needs.

Management Comments:              Again, further context is necessary to
understand the problem here. The offline Data-Entry tool was designed to
address constraints in the Iraq operating environment, including additional
MOF demands, and is not an ideal solution. The current tool was delivered
in the beginning of August of 2009, after it was re-configured to
accommodate the MOF’s new business requirement (new fourteen-digit
Chart of Accounts) to mimic the Budget Directorate’s manual budget
process. The delivery was behind schedule mainly due to MOF access
restriction (virtually and physically) to the IFMIS servers after the handover
of the system.

The tool was initially completed and delivered to the MOF DG of IT based
on a twelve-digit Chart of Accounts (CoA). In April of 2009, The MOF DG
of Budget decided to expand the CoA to fourteen digits to mimic the
Directorate’s manual budget process (an unusual change to make in the
middle of a fiscal year). Unlike the manual process, this required a time-
consuming reconstruction of the entire system’s database shell (re-
programming of the software’s code). BearingPoint coordinated with
FreeBalance’s team to work online directly with the MOF IT staff to

                                                                           52
expedite the modification, after the system was handed over to the Ministry.
However, the lack of cooperation from the MOF IT staff in providing proper
access to the system prevented the technicians from completing the
modification of the data shell and offline Data-Entry tool to accommodate
the new CoA structure on schedule. Despite Project recommendations, the
MOF IT staff turn on the IFMIS servers when the Ministry’s working day
starts, then turn the servers off after the Ministry concludes its working day.
The IFMIS servers’ limited operational time impeded the technicians from
completing tasks on schedule. The system should be a web-based
application that provides a countrywide-financial management system with
24 hours a day-7 days a week operation.

Because an e-Government solution in Iraq is constrained by various
infrastructure deficiencies, IFMIS is made operational by employing
available technology, including VSAT satellite communications. However,
not all of Iraq’s spending units have satellite connections or even computers.
Therefore, as a simple solution, the offline Data-Entry tool was created to
overcome the spending units’ connectivity impediment. Although this is a
useful tool for remote sites, it has inherent limitations in a system intended
to provide data in real-time over the internet.

Page 8, Relationship with the Vendor: When the IT staff tried to make
contact with the vendors, they were denied access because they were not
listed as the licensed owner.

Management Comments: The specific vendors are not named; the draft
audit report needs to provide the necessary context.

As general background on MOF communication with foreign vendors,
USAID notes that the MOF DG of IT demands a written authorization
signed by the MOF Minister, Deputy Minister, Inspector General and all the
Director Generals collectively, before she initiates dialogue with any foreign
vendor. For example, as we understand it, perhaps to avoid sole
responsibility or any unforeseen future consequences for actions, the MOF
DG of IT continues to refuse to hold any direct dialogue, including e-mails
and phone communications, with FreeBalance, the software company, to
establish a business relationship. All activities with FreeBalance have been
coordinated through the EG II program, which has ended. The MOF needs
to negotiate and sign a Product Support & Maintenance Agreement (PSM)



                                                                            53
with FreeBalance; without a PSM, the MOF will have no software support in
the future.

Many Iraqi government employees avoid engaging in any procurement-
related communication because of the fear of scrutiny by the Iraqi
Commission on Integrity, especially when dealing with foreign vendors.
The Iraqi Commission on Integrity is an independent commission within the
GOI tasked with preventing and investigating corruption at all levels of the
government nationwide. Despite its role in promoting open, honest and,
accountable government, the Commission’s efforts unfortunately may be
perceived by some middle and lower level public servants as a deterrent
against communication with vendors on necessary technical matters.


Page 8, Training: Although the training represented a large effort, Iraqi
system users were not satisfied with the training provided.

Management Comments: Negligible IT skills and widespread computer-
illiteracy within the Iraqi government service was a major constraint
affecting training. The high employee turnover, due to extensive emigration
of individuals with technical skills or knowledge (brain drain) as a result of
continuing conflict and political instability, also affected the effectiveness of
training. High employee turnover, coupled with a GOI-wide hiring freeze,
have also contributed to having inconsistent technical skill levels within the
Iraqi government workforce, including the MOF staff. This also frequently
forced the implementer to use a back-to-basics training approach, which
hampered satisfactory progress toward achieving the final intended result. A
continued reliance on legacy systems by MOF staff also resulted in a
continuation of existing shortcomings, and dissatisfaction with training
related to IFMIS.

The USAID Mission has provided the audit team full access to all
documents and correspondence pertaining to the IFMIS implementation.
This includes contact information for the former BearingPoint staff
(currently Deloitte); as well as a list of over twenty former local Iraqi
trainers who still reside in country. Most of the local trainers have
institutional knowledge of IFMIS implementation, and they could provide
valuable input regarding their daily interaction with the MOF staff and the
spending units. The collective set of facts and experiences held by the Iraqi



                                                                              54
trainers could clarify some misunderstanding or misinformation concerning
the IFMIS training that was provided, and implementation generally.


Page 8, Testing: No system-response testing was performed to determine
whether the system could support users from the 250 spending units
connected to the system. The Ministry of Finance IT staff stated that no one
from their department had been included in BearingPoint’s testing.

Management Comments: The implementer prepared a comprehensive,
well-communicated plan to transfer and test the IFMIS equipment. The
MOF DG of IT and her staff were included in the planning process, which
highlighted the roles and responsibilities of each party. Unfortunately, the
MOF staff did not complete their infrastructure site preparations as planned,
and the equipment’s hand-over was delayed. At the last minute, the MOF
changed the IFMIS Disaster Recovery Site to the MOF Main Headquarters
building (which we consider to have been a poor decision and defeats the
purpose of having an off-site recovery system that could restore the
information system in case of disaster--as demonstrated by subsequent
events, when the MOF Main Headquarters building was bombed twice
within a four month span in 2009). Additionally, the MOF Deputy Minister
and the DG of IT approved/signed the acceptance of the project’s assets,
after extensive negotiations, only two days before the BearingPoint’s
contractor staff repatriation and program close-out. This forced USAID to
extend the project by one month with limited resources and limited access to
the Ministry.

Nevertheless, three-weeks of hands-on training was conducted by
BearingPoint, and MOF IT staff assisted the BearingPoint technicians in
running all the necessary acceptance tests on the servers. The tests included:
stress testing to determine the stability of the system by putting a greater
emphasis on robustness, availability, and error handling; and recovery
testing to test how well the application is able to recover from crashes,
hardware failures and other similar problems. The system was designed, and
has been tested, to handle more than 250 units work load; however, the
system’s performance could not be critiqued conclusively outside the testing
environment until the MOF provides all the spending units with Internet
connectivity and adequate bandwidth to access the system.




                                                                           55
Page 9, Impact of Contract Type: Given the minimal incentive to control
costs, the Federal Acquisition Regulations 16.301.3(a) state that a cost
reimbursement contract may be used only when two conditions are met:
First, the contractor’s accounting system is adequate for determining costs
applicable to the contract. Second, appropriate government surveillance
during performance will provide reasonable assurance that efficient
methods and effective cost controls are used.
However, USAID/Iraq did not adhere to either condition.

Management Comments: The contractor for this program, BearingPoint,
has been a contractor for the U.S. Government for many years. The
programs they implement on behalf of USAID and other government
agencies have been audited by DCAA, OIG and other oversight agencies for
many years, all over the world. No deficiencies or problems in business
practices or accounting systems were reported by oversight agencies. The
awarding of the contract involved a thorough review by the USAID
Contracts Review Board and the decision on the type of contract was fully
documented and justified and determined to be relevant to the type of work
and the environment in which the work would be taking place. When the
contract for the Economic Governance II (EG II) program was signed there
was ample reason to believe that the contractor's accounting system was
adequate for appropriately capturing and reporting the use of federal funds
and this continued to be the case for all the years of implementation. DCAA,
as the appropriate government agency to assess the adequacy of such
systems (and the agency that determined BearingPoint’s NICRA), has never
determined (even in the last audit performed) that the contractor's accounting
system was inadequate. Yet, USAID, with the assistance of OIG,
has historically taken measures to collect inappropriately charged costs from
the contractor and has done so both in response to annual audit
recommendations and based on its own oversight of the contractor's costs.
Most recently, USAID filed a claim with the bankruptcy court for all debt
owed by BearingPoint under expired (not novated) contracts and
has recently settled on an amount to be collected.

Furthermore, in strict accordance with FAR 16.301.3(a), USAID has
continuously monitored and surveilled the appropriate use of obligated funds
under the entire EGII contract, including IFMIS. Such surveillance has been
conducted both by the COTRs who reviewed and approved vouchers
submitted by the contractor, and by the Contracting Officer(s) who have on
numerous occasions de-scoped activities, re-aligned budgets and re-

                                                                           56
negotiated the costs associated with implementation (such as security costs)
in order to better capture the realities of implementation and programmatic
priorities. This is evident through numerous contract modifications, most
recently Modification 22, dated September 30, 2008, which reduced the
costs associated with security and life support and made more resources
available for technical assistance. USAID, through the COTR and the CO,
has required and tracked the monthly programmatic and financial reports
related to the program, and has ensured that the contractor delivered its best
effort in meeting the contract's objectives. DCAA and OIG
recommendations have assisted tremendously in helping USAID strengthen
its financial and performance oversight and have often informed decisions
on funds re-allocations and collection of inappropriately charged costs.
Given these measures and the operating environment in Iraq at the time of
this program's implementation, the cost-reimbursement contractual
mechanism provided the government the most cost effective method for
reaching its development objectives for the EG II program writ large.


Page 11&12, IFMIS issues identified by Iraqi system users (Table 1)

We add the following information concerning the issues identified by Iraqi
system users to facilitate a more complete understanding of the issues, and to
correct misunderstandings. It is incorrect to leave the impression that the
IFMIS project has not made good faith efforts to address these issues and
respond to user needs.

Row 1, Unique invoice numbers:         The system does not accept unique
invoice numbers.

Management Comments: In relational database design, a unique key can
uniquely identify each row in a table. A table may have arbitrarily many
unique keys but at most one primary key that is automatically generated by
the database program. Examples of unique keys are a Social Security
number associated with a specific person—or in our case, an invoice
associated with a Ministry. A primary key is a special case of unique keys.
The major difference is that for primary keys it is automatically enforced. In
IFMIS, if the user enters any transaction in the system it will generate a
primary key that could be associated with an invoice and Ministry.




                                                                           57
However, this in not an issue of unique invoice numbers enforced, or
arbitrarily created, by the system. The issue in the report has been either
misinterpreted, or lost in the translation. The MOF Budget Directorate is
requesting a custom report that reflects data in a format they are familiar
with; they want the IFMIS program screen to mirror their legacy paper
format. FreeBalance did design such a report as requested by BearingPoint
and the report was presented to the DG of Budget in hard copy in April of
2009. The DG of Budget made several changes to the report but has yet to
provide final approval to the report.


Rows 2, 3, 4, and 7, Bank reconciliations, Bank accounts, Beginning
balances, and Budget

Management Comments: In order for the system to be fully productive,
the MOF must use the entire system (core and modules). The MOF Budget
Directorate presently uses the core system (consists of general ledger,
accounts payable and receivable) to process budget transfers and wants to
use the core system to also process supplemental budgets, carry forwards,
and other additions and deletions from the approved budgets. This requires
the ability to add to or reduce an approved budget figures without a
corresponding entry. The core system will not process a transaction that
does not have both a debit and a credit. This requirement is mandatory for
the core system and cannot be overridden. However, the Performance
Budget Module will allow these types of transactions. A demonstration for
the Performance Budget Module to the MOF should demonstrate of the
Performance Budget Module. We believe this will satisfy the MOF
requirements.


Row 5, Reports: System users could not print many of the reports they
needed, and the reports that could be printed were not useful.

Management Comments: Data quality has many dimensions including
accuracy, consistency and completeness. With any data resource, it is
essential to meet requirements for current and future demands for
information. Data completeness assures that the above principles are
fulfilled and is an indication of whether or not all the data necessary to meet
the business information and reporting demand are available in the database.



                                                                            58
The system is fully capable of generating any expenditure report on multiple
levels: Ministry, Department or spending unit. The problem noted is not a
reporting issue; it is a data quality issue (or lack of data), and lack of training
enforcement issue. If the user does not populate all the required fields as
he/she enters the transaction in the system, it will result in missing
information in the expenditure reports; such reports have limited utilization
and value. Additionally, this is an issue of not having a full comprehension
of the convoluted structure of the spending units throughout Iraq. The users
need to understand the Iraqi budget system, which is a hybrid system of
centralized and decentralized Treasuries, to be able to design expenditure
reports that are capable of capturing all information pertains to their Ministry
or Department.


Row 5, Reports: In addition, data from the system cannot be downloaded
into Excel spreadsheets.

Management Comments:             The reports can be downloaded in Excel
spreadsheet format.


Row 6, Trial balance: The system does not provide an accurate and
complete trial balance and yields only a partial trial balance.

Management Comments: As part of the restart of IFMIS in 2008, USAID
and the MOF agreed to undertake a pilot restart utilizing eleven previously
active and trained spending units. The pilot project was only partially
successful. Eventually, all eleven spending units did begin to use IFMIS
with the last site, the Ministry of Higher Education, beginning on February
of 2009, which was seven months after the pilot began on July of 2008.
Because the MOF Budget Directorate did not provide the 2008 budget
supplemental data to BearingPoint until May of 2009, no spending unit
(pilot or otherwise) was able to easily complete an entire month’s data entry,
produce a trial balance and reconcile to the legacy system. Without all
approved budget data in IFMIS, the spending units were not able to enter all
their data for a particular month.

To overcome these issues, BearingPoint local trainers worked with the MOF
Budget Directorate for five weeks in the first quarter of 2009 to manually
enter the transfer orders for these spending units. With this done and after

                                                                                59
the 2008 Budget Supplemental data was entered in early June, 2009, these
spending units should have been able to complete a reconciliation process.
The MOF undertook this reconciliation exercise without BearingPoint
participation even though we requested to include them as part of this
process. In June of 2009, the MOF claimed that nothing reconciled.
BearingPoint requested urgently that the MOF allow access to the local
trainers to review their work. After extensive dialogue, the MOF agreed to
provide access to BearingPoint’s local trainers; however, the trainers were
denied access at the MOF Main Headquarters’ gate by the guards and were
asked not go back again. Access to the MOF Main Headquarters, which
houses the Budget and Accounting Directorates, was not provided by the
MOF again. Subsequently, only BearingPoint IT specialists were allowed
limited access to the IT Directorate, which resides in a different location
outside the MOF Main Headquarters.

USAID/Iraq notes that, prior to the kidnapping incident, the system was used
for years by the MOF with the spending units reconciling monthly between
the legacy and IFMIS system. It is possible that the assertion that the system
now does not work could be self-serving by certain parties within the MOF
whose objective is to derail the implementation of the system, for reasons
alluded to previously.


Row 7, Budget: (1) The Ministry of Finance budget staff cannot add a
supplemental budget if the budget is increased during the fiscal year. (2)
The system will not accept more than one budget.

Management Comments: The Budget Module is a comprehensive
program for budget preparation, budget execution, review and approval,
forecasting and reporting.     In addition, it ensures effective budget
preparation, by providing the ability to process unplanned budgets such as
supplemental budgets, carry-over budgets, and other additions and
reductions from the approved budgets during the fiscal year. Although the
module was discussed during a meeting on April of 2009 that was devoted
primarily to the IFMIS core system, the relevant DG never agreed to receive
a demonstration of the module.

The Core IFMIS system is not designed to accommodate all the
requirements of the MOF Budget Directorate. This functionality is
contained in the Performance Budgeting Module. Unfortunately, the Budget

                                                                           60
Directorate has expressed no interest in the module and insists on attempting
to implement budget tasks in the Core IFMIS system. This decision
constrains the loading of new budgets into IFMIS. In the Core system, this
upload must be done either manually (which is not practical and defeats the
purpose of an automated system) or electronically through a data conversion
process performed by FreeBalance. If the MOF were to utilize the
Performance Budgeting Module to create the budget for the GOI, budget
data would be uploaded efficiently and automatically into the Core IFMIS
system.


Row 7, Chart of accounts: In the new system, the systems administrator
cannot add accounting classifications to the chart of accounts

Management Comments: By utilizing unused digit (zero) from the
previous twelve-digit Chart of Accounts (CoA), and by adding two extra
digits, the current fourteen-digit CoA offers 999 new additional possibilities
of accounting classification. In the future, if the MOF needs to add
additional accounting classification, it would require a new database shell to
be created by FreeBalance. However, it would be highly unlikely for the
MOF Directorate of Budget to consume the current possibilities that the
system offers any time soon.


Row 8, Auto save function: If Internet service is interrupted while a user is
entering a transaction, the parts of the transaction that were entered before
service was interrupted are not saved.

Management Comments: The architecture of IFMIS does not allow for an
auto save function for power interruption or lost internet connectivity.
However, there is a “Temp Save” feature and we recommended that the
MOF adopt the use of this feature and instruct their staffs to click on the
button frequently to help mitigate losses. The MOF staff has received the
basic user training, which has included the feature’s usage.


Row 9, Flags for exceeding budget: If a transaction is entered that exceeds
the allocated budget ceiling for the account, the system does not inform the
user that it will not accept the transaction until the transaction has ended.



                                                                           61
Management Comments: In order to check funds availability for the
amount being entered, we recommended that the end user use the “Temp
Save” functionality of the system which will allow the user to temporarily
save the transaction after each line is entered thereby checking the funds for
each line, and the user will be informed if the transaction exceeds the
allocated budget ceiling for the account. An added benefit to saving the
information entered up to that point is that in the event that power or internet
connectivity is lost, the work is not lost as well. The MOF staff has received
the basic user training, which has included the feature’s usage.


Row 10, System response time: Ministry of Finance staff reported that they
received numerous complaints from spending units regarding a long
response time using the Iraq Financial Management Information System.

Management Comments: FreeBalance database software, compared with
other major corporate level packages, including SAP and Oracle, provides
core functionality with the option to add further functional modules post
implementation, which means it requires less overhead. Other systems may
be more powerful, but they are uniformly more cumbersome, complex – and
certainly require extensive overhead. In Information Technology, overhead
is generally considered any combination of excess or indirect computation
time, memory and bandwidth that are required to attain a particular task.

Since IFMIS is a web-based system, its slow response time is an issue of
insufficient bandwidth, and availability. Initially, this issue was raised by
the MOF Budget Directorate. We recommended increasing the internet
bandwidth and the MOF has agreed to purchase a separate VSAT connection
especially for the Budget Directorate. Unfortunately, the DG of IT has not
provided the internet connection due to the MOF internal budget-
expenditure and procurement approval problems.

It needs to be noted that management of bandwidth availability is a major
problem in Iraq’s telecommunication business. In general, the Iraqi
government’s agencies utilize the satellite communication for internet
service, through private local Internet Service Providers (ISP) or vendors.
To satisfy the business’s critical requirements for bandwidth, usually the
agencies purchase a pre-agreed level of dedicated (or un-contended)
bandwidth allocated to their service. Dedicated bandwidth is provided with
Quality of Service (QoS) guarantees and ensures that the internet service is

                                                                             62
never impacted by peaks in other network activity. However, due to lack of
rules and regulations enforcement in the Iraqi telecommunication industry,
the vendors are selling more bandwidth than their networks have the
capacity to handle. They advertise the highest speed (dedicated bandwidth)
services that a user can attain, however, their network can not actually
handle all users using that speed for any length of time. It is similar to a
restaurant selling an all-you-can-eat buffet to a hundred customers, but only
buying enough food for fifty. This issue has forced the MOF DG of IT to
switch ISPs a couple of times in the past year; however, the insufficient
bandwidth continues to be problematic.             Ultimately, a higher-level
government intervention is needed to enforce better telecommunication
regulations in Iraq.


Page 14: USAID/Iraq stated that they planned to engage in 6 more months
of work on the Iraq Financial Management Information System with the
intent of having the Ministry of Finance institutionalize the system. To this
end, USAID/Iraq has been working with the Ministry of Finance to obtain a
commitment in the form of a memorandum of understanding that will outline
mutual responsibilities if USAID continues work on the system. The amount
of the additional work has been estimated at $1.5 million. USAID’s draft
memorandum        of     understanding   included      facilitating   regular
communications with the software vendor, FreeBalance, and providing
training to users of the system.

Management Comments: The paragraph referring to USAID/Iraq’s plans
to engage in six more months of work on IFMIS should be removed as this
is out-of-date.


      D.    Conclusion

It must be clearly understood that the automated Iraqi Financial
Management Information System is merely a tool through which budget
execution can be controlled and that other separate reform initiatives within
MOF must be conducted in parallel if the goal of implementing improved
financial control is to be realized. Changes in MOF procedures remain
superficial and short-lived. Unless there are fundamental changes in values,
ways of thinking, and approaches to problem solving, the problem will
continue to exist.

                                                                          63
The reality is that governments worldwide have acquired various Financial
Management Information System software applications “off-the shelf,”
whether they are FreeBalance, SAP or Oracle. Very few governments have
successfully developed their own integrated systems in-house. The
implementer of any similar software must seek the involvement of
counterparts in the early decision- making phase of a project, and may
experience the same lack of capacity, motivation and expertise among the
staff within the relevant Ministry. It is likely that similar difficulties in
completing or following standard project management steps will be
encountered and budget and time constraints will force expediency, as was
the case with this project. Obtaining full agreement of all parties on the
required functionality and appropriate applications may still be problematic
and time-consuming even under the best of circumstances. “The best of
circumstances” Iraq is not.


III.   Recommendation

“We recommend that USAID/Iraq refrain from further funding of the Iraq
Financial Management Information System until the mission develops a
documented action plan that specifically addresses ongoing impediments to
the successful implementation and sustainability of the system. This action
plan should include the following elements: (1) identification of outstanding
technical problems in full collaboration with the Ministry of Finance of the
Government of Iraq, (2) determination of whether these outstanding
technical problems can be resolved and by whom, (3) resolution of
outstanding technical problems before training is provided in an area with
functional issues, (4) training designed to meet the needs identified by Iraq
system users from the Ministry of Finance, and (5) identification of and
adherence to IT best practices, such as COBIT.”


Action Taken: The Mission concurs with the Recommendation. All
funding for this project stopped at the conclusion of the Economic Growth
Program (EG II) on August 30, 2009. At present USAID/Iraq is not
planning any further funding of IFMIS. As discussed at length in our
Management Comments, the IFMIS project experienced difficulties
resulting from the lack of sufficient support for IFMIS at appropriate levels
within the Ministry of Finance. If in the future the Ministry of Finance were

                                                                          64
unequivocally to demonstrate a commitment to support the IFMIS system,
and requests USAID assistance, the Mission could consider additional
support. If such support were provided in the future, it would be developed
using an Action Plan which includes the elements in the Recommendation
above.

Based on the above, Mission requests OIG/I acknowledgement of a
management decision and the action taken to close the recommendation.




                                                                        65
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue NW
         Washington, DC 20523
           Tel.: 202–712–1150
           Fax: 202–216–3047
           www.usaid.gov/oig
